yi

/
'
t

■4*

t

!

APPENDIX A US Court of Appeals Decisions, Judgments and
Orders
Judgment of US Court of Appeals for 3d Circuit July 30,2020

App A 1

Entry of Judgment July 30, 2020

App A

2

Opinion of US Court of Appeals for 3d Circuit July 30,2020 (11 pages)

App A

3

Order : Denying Rehearing

App A

4

\

y

K

t

Case: 19-2009

Document: 37-1

Page:1

Date Filed: 07/30/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. J 9-2009

BLANCHE A. BRO WN,
Appellant
v.
UNITED STATES OF AMERICA

Oil Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-17-cv-01551)
District Judge: Honorable Mitchell S. Goldberg

Submitted Pursuant to Third Circuit LAR 34.1 (a)
June 19, 2020
Before: AMBRO, GREENAWAY, JR. and PORTER,
Circuit Judges
JUDGMENT

rn rf r1TC Ga,T!!t0 be CQnsidered on *e record from the United States District
Court for the Eastern District of Pennsylvania and was submitted pursuant to Third
Ciicuit EAR 34.1(a) on June 19, 2020. On consideration whereof! it is now hereby
enteredS???! Tt ADf°GED ^ lhis Court that the judgment of the District Court
entered May 1, 2019, be and the same is hereby affirmed. No costs will be taxed
. All of
the above m accordance with the opinion of th is Court.
ATTEST:

s/ Patricia S. DodsznwNf
Clerk

Dated: July 30, 2020

Appendix A

1
1 of 3

?

Case: 19-2009

Document: 37-2

Page:1

Date Filed: 07/30/2020

OFFICE OF THE CLERK
PATRICIA S. DQDSZUWEIT

United Stat es Court of Appe ALS
2i400 UNITED STATES COURTHOUSE
60! MARKET STREET
PHILADELPHIA, PA 19106-1790

CLERK

’

TELEPHONE
215-597-2995

Website: www.ca3.uscourts.gov

July 30,2020
Blanche A. Brown
P-O. Box 266
Atglen, PA 19310
Scott W. Reid
Jacqueline C. Romero
Office of United States Attorney
615 Chestnut Street Suite 1250
Philadelphia, PA 19106

RE: Blanche Brown v. USA
Case Number: 1.9-2009
District Court Case Number: 2-17-cv-0155I
ENTRY OF JUDGMENT
SdhR App p°!'™20 tl,e C°"rt "”tered '“Judgment in the above-captioned

iroeed^io fif

^ d™s,m->™

matter pursuant to

«ea petition for rehearing. The

wh„::rm8 - - “in

r- ^p-35 - * ««.

Time for Filing1.4 days after entry ofjudgment.
45 days after entry of.judgment in a civil case if the United States is a party.
Form Limits:
3900 words tf produced by a computer, with a certificate of compliance pursuant to Fed. R. App.

15 pages if hand or type written.
AttachmentsA copy of the panel's opinion and judgment only.

Appendix A

2

2 of 3

Case: 19-2009

Document: 37-2

Page: 2

Date Filed: 07/30/2020

Certificate of service.
Certificate of compliance if petition is produced by a computer
No other attachments are permitted without first obtaining leave from the Court. '
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
ns rued as requesting both panel and en banc rehearing. Pursuant to Fed. R. App P 35(b)(3)
'sS.^aia!e Petlt,ons for panel rehearing.and rehearing en banc are submitted, theywill be treated
35fhV7? ?fd0CiUmenl uW1 ” bC SUbjeCt t0 the form limits as set fortb 111 Fed- R-App P
filini of, L°h r' T "feanng !S fUgbts C°Urt'S mles d0 not Provide for *6 subsequent
is d“ W
6m
eV“‘ttat tlK pe“10” S“W"8 °"ly P=»ei
A party who is entitled to costs pursuant to Fed.R.App.P. 39 must file an itemized and verified
bill of costs within H days from the entry ofjudgment. The bill of costs must be submitted
on
the proper form which is available on the court’s website.
A mandate will be issued at the appropriate time in. accordance with the Fed. R. App. p. 41
Please consult the Rules of the Supreme Court of the United States
regarding the timing and
requirements for filing a petition for writ of certiorari.

Very truly yours,
Patricia S. Dodszuweit, Clerk

By: s/ Caitlyn
Case Manager
267-299-4956

3 of 3

Case: 19-2009

Document: 36

Page: 1

Date Filed: 07/30/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2009

BLANCHE A. BROWN,
Appellant
v.

UNITED STATES OF AMERICA

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-17-CV-0I551)
District Judge: Honorable Mitchell S. Goldberg

Submitted Pursuant to Third Circuit EAR 34.1(a)
June 19, 2020
Before: AMBRO, GREENAWAY, JR. and PORTER, Circuit Judges
(Opinion filed: July 30, 2020)

OPINION*
PER CURIAM
Appellant Blanche A. Brown appeals the final judgment: and multiple decisions
entered by the United States District Court' for the Eastern District of Pennsylvania in her
lawsuit brought pursuant to the Federal Tort Claims Act (“FTCA”). We will affirm.

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not

Appendix A

3

Case: 19-2009

Document: 36

Page: 2

Date Filed: 07/30/2020

The parties are familiar with the background, and their briefs provide an ample
accounting of the details, so we provide only a summary. Brown alleged the following in
her complaint. As a cardiac patient in the United States Department of Veterans Affairs
(“VA”) health program, she received medical care at the Coatesville VA Medical Center
(“VAMC”), Coatesville, Pennsylvania. Her half-brother, James, was employed there as a
groundskeeper. In early 20.14, while recuperating at home from open heart surgery, she
received more than 250 telephone calls from James, complaining to her about his
workplace issues. During that period, James assaulted and threatened to kill VA
Registered Nurse R. Solomon, and he later used Solomon’s personal email account to
threaten and harass Brown. Brown filed a protection from abuse action against him, but
James’s conduct escalated to violent incidents, including when James cut her home
telephone line and discharged his firearm outside her window. On May 12, 2014, as
Brown arrived at the VAMC, James drove up to her in the parking lot, glared at her, and
drove away. James’s harassment continued for months. Brown asserted that VAMC
officials and employees failed to discipline or fire James and were dismissive when she
expressed concerns about her safety. Further, Brown also alleged that James’s brother,
A.W. Brown,1 a VAMC patient records office employee, disclosed some of her medical
information to James.

constitute binding precedent.
1 Brown clarified in a later filing that she was not raised with her siblings Janies and
A.W. and became acquainted with them in 2003. (Motion to file Amended Complaint at
2

Case: 19-2009

Document: 36

Page: 3

Uate Mfea: u/’/au/^u^u

Ultimately, Brown filed an administrative claim, followed by her FTCA complaint
ag ainst the United States. Brown set forth her claims in fifteen counts.
(1) negligence/gross negligence; (2) negligent retention; (3) negligence per se;
(4) privacy violation; (5) negligent hiring, retention, and supervision; (.6) failure to protect
and prevent abuse; (7) patient abuse; (8) failure to report abuse; (9) patient abandonment;
(10) harassment, intimidation, and retaliation; (11) discrimination; (12) negligent
infliction of extreme mental distress; (13) negligent investigation; (14) intentional
infliction of mental distress; and (15) punitive damages. The Government filed a motion
to dismiss the complaint pursuant to Federal Rules of Civil Proceduie 12(b)(1) and
12(b)(6), and Brown filed her response.
By memorandum and order entered on February 7, 2018, the District Court
dismissed Counts 1-3 and 5-14 for lack of subject matter jurisdiction under Rule 12(b)(1),
because those counts fell outside the FTCA’s limited waiver of sovereign immunity.
The Court based its rulings on the discretionary function exception to the FTCA,
28 U.S.C. § 2680(a), and the FTCA’s scope of employment requirement, 28 U.S.C.
§§ 1346(b)(1) and 2679(b)(1). It dismissed Count 15 for failure to state a claim under
Rule 12(b)(6) because the FTCA itself precl udes punitive damages. See 28 U.S.C.
§ 2674. It also found that amendment of the complaint would be futile. The matter

4, Docket #43.)
....
■
2 The District Court dismissed Count 11 for lack of subject matter jurisdiction for failure
to exhaust the matter in her administrative claim. See 28 U.S.C. § 2675(a). Brown does
not argue this issue on appeal, and we will not discuss it further.
3

Case: 19-2009

Document: 36

Page: 4

Date Filed: 07/30/2020

proceeded to discovery on Count 4, the pri vacy violation claim, with a July 13, 2018
discover}' deadline.
Brown filed a series of motions, including motions for leave to amend her
complaint, motions for the District Court Judge’s recusal, and motion to quash the
Government’s notice of deposition, which was scheduled for July 9, 2018. The District
Court denied Brown’s motions and directed her to appear for her deposition at the
Courthouse. Brown did not appear for the deposition, having infonned opposing counsel
by email about an hour earlier that she was not feeling well. The Government filed a
motion to dismiss for lack of prosecution, or alternatively, to compel discovery. Brown
responded by explaining, among other things, that she had been ill the previous week due
to the heat wave and the stress of preparing for the deposition, that she was afraid that
James would harm her as she departed her home for the Courthouse, that she had to take
a nap due to her exhaustion, and that the Government’s deposition created a dangerous
situation causing her to risk bodily harm to pursue her case. On July 26, 2018, the
District Court issued an order for Brown to appear for her deposition within thirty days,
at a date and time to be agreed upon by the parties. The District Court restricted the
attendees to Brown and any counsel she may retain, Government counsel, and the court
reporter. Further, the District Court gave notice that Brown’s case may be dismissed for
lack of prosecution if she failed to reasonably agree to a new' date and time for her
deposition or again failed to appear. The District Court also denied Brown s recusal
motions.
4

Case: 19-2009

Document: 36

Page: 5

Date Filed: 07/30/2020

Brown declined Government counsel’s requests for possible deposition dates.
Instead, she responded that she was going to report counsel to the state bar association for
attorney misconduct, because scheduling her deposition in Philadelphia was part of a
malicious scheme to cause her to default on her claims. Brown also filed a motion for a
protective order to prevent her deposition for reasons echoing those raised in her earlier
motion to quash. For example, Brown contended that Government counsel was misusing
the discovery process to trigger James’s violence and cause her to suffer from cardiac
distress or heat stroke by holding the deposition in Philadelphia in August. Brown
suggested alternatives, such as appearance by telephone or at some location closer to
Lancaster County, or providing her with a United States Marshal escort to Philadelphia.
On February 21, 2019, upon the Government’s motion to dismiss for lack of prosecution,
the District Court dismissed the remainder of Brown’s complaint under Federal Rule of
Civil Procedure 41(b), with prejudice, for failure to prosecute. Brown filed post­
judgment motions, which the District Court denied. This appeal followed.3 We have
appellate jurisdiction under 28 U.S.C. § 1291.
We begin with the District Court’s decision to grant the Government’s motion to
dismiss pursuant to Federal Rules of Civil Procedure 12(b)(1) (lack of subject matter
jurisdiction) and 12(b)(6) (fail ure to state a claim upon which relief could be granted).

3 Brown’s first motion for reconsideration was timely filed within 28 days of the District
Court’s dismissal of the case, thus tolling her deadline to appeal; she had 60 days to
appeal after entry of the District Court’s March 25,2019 order denying her motion. See
Fed. R. App. P. 4(a)(1)(B) & (4)(A). Brown’s May 1, 2019 notice of appeal identifies
5

Case: 19-2009

Document: 36

Page: 6

Date Filed: 07/30/2020

Oar review is plenary. See Free Speech Coal., Inc, v. Attorney Gen, of U.S,, 677 F.3d
519, 529-30 (3d Cir. 2012).
The FTCA permits claims to be brought against the United States for certain torts
committed by federal employees, when private individuals engaging in analogous
behavior would be subject to state law liability. See 28 U.S.C. § 1346(b)(1), 28 U.S.C.
§§ 2671-2680. However, this waiver of sovereign immunity is subject to jurisdictional
requirements and limitations, and the District Court appropriately considered those initial
jurisdictional limitations when ruling on the Government’s motion to dismiss. See CNA
v. United States. 535 F.3d 132,144 (3d Cir. 2008) (explaining that disputes over the
§ 1346(b)(1) scope of employment requirement is a jurisdictional question appropriate
for consideration under Rule 12(b)(1)): see also Gotha v. United States, 115F.3d 176,
178-79 (3d Cir. 1997) (treating the § 2680(a) discretionary function exception to the
FTCA as jurisdictional). We conclude that the District Court correctly decided that it
lacked subject matter jurisdiction over Brown’s FTCA claims.4

numerous decisions made throughout the proceedings and was timely as to all.
4 Brown emphasizes that she brought her complaint against the United States under the
FTCA. She contends that the District Court improperly classified her case as a civil
rights action against government subdivisions and employees, thereby misinforming its
adjudication of her claims. However, it is evident that the Court analyzed Brown s
complaint to determine whether it had FTCA subject matter j urisdiction as a threshold
matter, given that “the FTCA itself is the source of federal courts’ jurisdiction to hear tort
claims made against the Government,” not the general grant of federal question
jurisdiction under 28 U.S.C. § 1331. See CNA, 535 F.3d at 140-41.
6

Case: 19-2009

Document: 36

Page: 7

Date Filed: 07/30/2020

The District Court properly determined that the discretionary function exception
barred claims 1-3, 5, 6, 8, 12, and 13. This exception to theFTCA provides that no
liability shall lie for claims “based upon the exercise or performance or the failure to
exercise or perform a discretionary function or duty[.]” 28 U.S.C. § 2680(a). The
alleged negligence by VAMC supervisors and employees in (1) failing to train, supervise,
discipline, or fire its employees and (2) failing to report, or investigate reports, of abuse
by James against Brown involve an element of judgment of the sort that the exception
was designed to shield. See Mitchell v. United States, 225 F.3d 361, 363-64 (3d Cir.
2000) (quoting United States v. Gaubert, 499 U.S. 315, 322-23 (1991)). Employment
and termination decisions, and decisions as to investigation, are within the category of
conduct covered by the discretionary function exception. See mg., Sydnes v. United
States, 523 F.3d 1179,1185-86 (10th Cir 2008) (employment-related decisions);
Bernitskv v. United States, 620 F.2d 948, 955 (3d Cir. 1980) (investigation-related
discretionary judgments). Moreover, the discretionary function exception applies
“whether or not the discretion involved be abused.” 28 U.S.C. § 2680(a); see Merando_y.
United States, 517 F.3d 160,167 (3d Cir. 2008). Brown did not identify a federal statute,
regulation, or policy that mandated the actions that she asserted were warranted.
In addition, we agree with the District Court’s conclusion that claims 7, 9, 10, and
14 did not fall within the scope of FTC A subject matter jurisdiction, because the alleged
negligent acts by VAMC employees were not taken “within the scope of [their]
employment.” See 28 U.S.C. §§ 1346(b) and 2679(b)(1). As explained by the District
7

f
*3

Case: 19-2009

Document: 36

Page: 8

Date Filed: 07/30/2020

Court, the actions by R. Solomon (e^, allowing James to use her personal email account
to threaten Brown and thwarting Brown’s attempts to report James’s conduct to Ills
workplace authorities) and by James (stalking and telephoning Brown at home and
confronting Brown in the VAMC parking lot when he was on leave from work5) had
nothing to do with their VAMC jobs, did not take place within authorized time and space
of their jobs, and had no purpose of serving the VA. See CNA, 535 F.3d at 146-47
(applying Pennsylvania law as the law where the act or omission occurred). The same is
true of the other allegations of intimidation and infliction of mental distress. Given that
Brown’s allegations relate to conduct prompted by the employees’ personal motives
rather than job-related activities, these claims do not fall under the FTCA.
Brown argues that the District Court improperly denied leave to amend her
complaint. However, it did grant Brown a 14-day period to fde an amended complaint.
(See District Court March 23, 2018 Scheduling Order, Docket #28.)6 She did not do so
within that allotted time. As for her later requests for leave to amend her complaint and

5 (See Govt’s Mot. to Dismiss, Exhibits 1, 2.) When considering a factual attack to the
District Court’s subject matter jurisdiction, the District Court was permitted to review
evidence and make factual findings outside of the pleadings. See CNA, 535 F.3d at 145.
6 Brown argues that she did not receive timely notice of this March 23, 2018 order
because the District Court revoked her CM/ECF account privileges around that time, and
she later found the Court’s notification of the order in her email spam folder. See
Appellant’s Brief at 7. We do not find evidence of account revocation on the docket, but
it appears that Brown did have CM/ECF account access at least as of March 26,2018;
she successfully filed and served a motion via CM/ECF that day. (See Docket #30.)
Also, Brown asserts that the Court’s allowance of time to amend her complaint was
“obscure,” but it appears in numbered paragraph two of the order.
8

*,.<323$'. .. •

t*

Case: 19-2009

Document: 36

Page: 9

Date Filed: 07/30/2020

resurrect the claims dismissed for lack of subject matter jurisdiction, the District Court
com ectly denied those requests for the reasons stated in its July 16, 2018 order. The
Government’s Rule 12(b)(1) factual attack on the existence of subject matter jurisdiction
is distinct from a facial attack on sufficiency of the pleadings, and it put the burden of
persuasion on Brown. See CNA, 535 F.3d at 145. Dismissal for lack of subject matter
jurisdiction may occur at any time, even before discovery occurs. See id at 145-46.
Brown had the opportunity to present her basis for FTCA jurisdiction when she
responded to the Government’s motion to dismiss, and her legal arguments do not cure
the deficiencies in FTCA jurisdiction.
We now turn to the District Court’s Rule 41(b) dismissal of Brown’s privacy
violation claim for failure to prosecute. We review this decision for an abuse of
discretion. See Briscoe v. Klaus. 538 F.3d 252,257 (3d Cir. 2008). In our review, we '
consider how the court balanced the six factors set out in Poulis v. State Farm Fire and
Casualty Company, 747 F.2d 863, 868 (3d Cir. 1984): (1) the plaintiff s personal
responsibility; (2) the extent of prejudice to the defendant caused by the failure to meet
scheduling orders and to respond to discovery: (3) any history of dilatoriness; (4) whether
the conduct was willful or in bad faith; (5) the effectiveness of sanctions other than
dismissal; and (6) the meritoriousness of the claim. See Poulis. 747 F.2d at 868. No
single factor alone is determinative to the outcome, and not all of the factors need to be
satisfied to support dismissal. See Briscoe, 538 F.3d at 263 (3d Cir. 2008).

9

Case: 19-2009

Document: 36

Page: 10

Date Filed: 07/30/2020

After considering the record and the parties’ briefs, we conclude that the District
Court did not abuse its discretion in dismissing the action. The District Court amply
memorialized its Poulis findings in dismissing Brown s case and provided a detailed
account of Brown’s actions and filings to avoid the scheduled deposition. We need not
revisit the specifics here, but the District Court considered Brown’s numerous filings
containing variable reasons for protesting her deposition, as well as her failure to comply
with the District Court’s order. It suffices to say that the record supports the District
Court’s analysis of the Poulis factors, including the findings that Brown was personally
responsible for her litigation while proceeding pro se, that alternative sanctions would not
be helpful given her unwillingness to abide by court orders, and that her behavior could
not be characterized as “inadvertent or negligent” and was instead “intentional or selfserving.” See Briscoe. 538 F.3d at 262. Also, the District Court deemed the potential
merits of Brown’s remaining privacy claim to be a neutral Poulis factor because Brown
had yet to substantiate her claim during discovery. Although doubts concerning a Rule
41(b) dismissal should be resolved in favor of reaching a decision on the merits, see
Briscoe. 538 F.3d at 257 (3d Cir. 2008), the District Court did not commit an abuse of
discretion in balancing all of the Poulis factors and dismissing Brown’s remaining claim.
In addition. Brown challenges the District Court’s denial of her motions for
recusal pursuant to 28 U.S.C. § 455. We find no abuse of discretion in those denials. See
Securacomm Consulting. Inc, v. Securacom Inc., 224 F.3d 273, 278 (3d Cir. 2000).
Brown argues, among other things, that the District Court’s adverse decisions contain
10

/

Case: 19-2009

Document: 36

Page: 11

Date Filed: 07/30/2020

1 a

word choice, style, and tone that minimize and mischaracterize her claims. See
Appellant’s Brief at 22-23. However, Brown’s dissatisfaction with unfavorable decisions
does not necessitate the District Judge’s recusal. See Litekv v. United States. 510 U.S.
540, 555 (1994). Further, Brown’s allegations that the District Judge had former
employers and an alma mater in common with defense counsel would not cause an
objective person to reasonably question the Judge’s impartiality. See 28 U.S.C. § 455(a)
(requiring recusal when the judge’s impartiality “might reasonably be questioned”); In re
United States. 666 F.2d 690, 694 (1st Cir. 1981) (noting that a judge’s recusal is not
required on the basis of “unsupported” or “highly tenuous speculation”).
Finally, the District Court did not err in denying Brown’s post-judgment motions.
Her motions did not demonstrate sufficient basis for granting reconsideration, such as an
intervening change in controlling law, new evidence, or the need to correct clear error of
law or fact or prevent manifest injustice, see Max’s Seafood Cafe v. Quinteros. 176 F.3d
669. 677 (3d Cir. 1999), or sufficient grounds for reopening the final judgment under the
provisions of Rule 60(b).
We have considered Brown’s remaining arguments and conclude that they are
unpersuasive. Accordingly, we will affirm the District Court’s judgment.

11

i

/
y

Case: 19-2009

Document: 40

Date Filed: 10/05/2020

Page: 1

tJ *

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2009

BLANCHE A. BROWN,
Appellant
v.
UNITED STATES OF AMERICA

On Appeal from the United States District Court
for die Eastern District of Pennsylvania
(DC. Civ. Action No. 2-17-cv-01551)
District Judge: Honorable Mitchell S. Goldberg

Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision havi ng asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc is denied.
BY THE COURT,
s/Joseph A. Greenaway, Jr.
C ircuit Judge
Dated: October 5, 2020
Lmr/cc: Blanche A. Brown
Scott W. Reid
Jacqueline C. Romero

Appendix A

4

APPENDIX B: US District Court of Eastern District of Pennsylvania Opinions,
Judgments and Orders
ORDER: Grant of Defendant Rule 41(b) Penalty Involuntary Dismissal motion
February 21. 2019 ..........................................................................................

App B

1

App B

2

App B

3

Memorandum Opinion : Rule 41(b) Penalty Dismissal
February 21. 2019 ..............................................................................................
ORDER: Denial of Plaintiff Request for Reconsideration of Final Judgment
March 25. 2019

..................................................................................................

ORDER: Denial of Plaintiff s Request for Reconsideration of Partial Dismissal
July 16.2018 ...................................................................

App B

4

ORDER: Denial of Plaintiff s Motion to Quash Def Subpoena duces tecum
June 29. 2018 ....................................................................................

App B ^ 5

ORDER: Denying Plaintiff s Motion to Amend her Complaint and make a clearer
statement
May 29. 2018

App B

6

App B

7

ORDER: Denying Plaintiffs request for Phone Conference Rule 16 motion
March 20, 2018 ....................................................................................................
ORDER: Denying Plaintiff Request to Restrain Defendant from inciting Violence
from embattled patient-abusing VA employee against Plaintiff Feb 28. 2028 .......

App B

8

App B

9

ORDER : Granting Defendant Rule 12 Dismissal Motion (“in Part”)
Dismissing 14 of Plaintiff s claims and “preserving” Tort of “Invasion of Privacy”
(which Plaintiff did not make) Feb 7. 2018.........................................
Memorandum Opinion (23 pages) Partial Dismissal (14 out of 15 claims)

App B

/

10

Case 2:17-cv-01551-MSG Document 77 Filed 02/21/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff,
v.
NO. 17-1551
UNITED STATES, etal.
Defendants.
ORDER
AND NOW, this 21st day of February, 2019, upon consideration of Plaintiffs Motion for
Protective Order (Doc. No. 67), Defendants’ Motion to Dismiss for Lack of Prosecution and
Response to the Motion for Protective Order (Doc. No. 69), and Plaintiffs Response in Opposition
to the Motion to Dismiss for Lack of Prosecution and Counter-Motion for Default Judgment (Doc.
No. 73), it is hereby ORDERED that the Motion for Protective Order and Counter-Motion for
Default Judgment are DENIED and the Motion to Dismiss is GRANTED. Plaintiffs Complaint
is DISMISSED WITH PREJUDICE and the Clerk of Court is directed to mark this case
CLOSED.
It is further ORDERED that Plaintiffs First Motion to Compel Discovery (Doc. No. 68),
Third Motion for Recusal (Doc. No. 70), and Motion for Sanctions (Doc. No. 75) are DENIED
AS MOOT.

BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

Appendix B

1

J.

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 1 of 15

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff,
v.
NO. 17-1551
UNITED STATES, etal.
Defendants.
Goldberg, J.

February 21,2019
MEMORANDUM OPINION

Plaintiff Blanche Brown, proceeding pro se, brings the current Federal Tort Claims Act
(“FTCA") action against the United States, Coatesville Veterans’ Administration Medical Center
(“Coatesville VAMC”), and administrators of the Region 4 Veterans Integrated Services Network,
alleging negligence by the Coatesville VAMC administrators in not supervising and discharging a
VA employee who repeatedly harassed Plaintiff.
On February 6,2018,1 dismissed all but one of Plaintiff s claims. Subsequent to that ruling,
the litigation took a contentious turn, with Plaintiff refusing to come to Philadelphia for court
conferences or depositions, repeatedly requesting recusal, and seeking sanctions against defense
counsel. Following Plaintiffs second failure to appear for her deposition, Defendants filed the
current Motion to Dismiss for Lack of Prosecution. For the reasons set forth below, the Motion will
be granted and the remainder of Plaintiff s Complaint will be dismissed with prejudice.
I.

FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff initiated the current action on April 5, 2017, alleging that she was a patient at the

Coatesville VAMC and that her brother James (“JAB”) worked as a groundskeeper there. Her

Appendix B

2

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 2 of 15

Complaint detailed multiple instances of JAB harassing Plaintiff at her home. Plaintiff claimed that
Coatesville VAMC had known for decades about JAB’s physical abuse of women employees, yet
fostered a culture of hostility towards veterans, particularly women and minorities. According to
Plaintiff, Coatesville VAMC’s managers, human resources, administrators, and other decision
makers failed to discipline JAB and/or terminate his employment. In light of Defendants’ alleged
actions, Plaintiff set forth claims for negligence/gross negligence (Count I); negligent retention
(Count II), negligence per se (Count III), a privacy violation (Count IV), negligent hiring, retention,
and supervision (Count V), failure to protect and prevent abuse (Count VI), patient abuse (Count
VII), failure to report abuse (Count VIII), patient abandonment (Count IX), harassment,
intimidation, and retaliation (Count X), discrimination (Count XI), negligent infliction of extreme
mental distress (Count XII), negligent investigation (Count XIII), intentional infliction of mental
distress (Count XIV), and punitive damages (Count XV).
Defendant filed a Motion to Dismiss Plaintiffs Complaint under Federal Rules of Civil
Procedure 12(b)(1) and 12(b)(6). (ECF No. 6.) On February 6, 2018,1 issued a Memorandum and
Order dismissing all of Plaintiff s causes of action, except for her claim for invasion of privacy, for
either lack of subject matter jurisdiction or failure to state a claim upon which relief may be granted.
(ECF Nos. 12-13.)
Thereafter, an in-person Rule 16 scheduling conference was set for March 22, 2018. (ECF
No. 15.) Plaintiffs original request that the conference be conducted by telephone was denied and
Plaintiff was ordered to appear. (ECF No. 23.) Due to inclement weather, the Rule 16 conference
was rescheduled for March 23, 2018, to be conducted by telephone. (ECF No. 27.) Following that
conference, I issued a scheduling order referring the case to United States Magistrate Judge Timothy
Rice for settlement purposes, ordering fact discovery to be completed by July 13, 2018, and

2

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 3 of 15

directing that all motions for summary judgment be filed no later than August 13, 2018. (ECF No.
28.)

On March 26, 2018, Plaintiff moved to stay proceedings until the resolution of her thenpending motion for reconsideration of the February 6, 2018 Order. (ECF No. 30.) In addition,
Plaintiff filed (1) a second Rule 54 Motion to Alter/Reverse Partial Judgment (ECF No. 35, April
8, 2018); (2) a request to modify the scheduling order and for extension of time to amend the
complaint (ECF No. 36, April 21, 2018); (3) an amended complaint (ECF No. 38, May 16, 2018;
ECF No. 39, May 24, 2018); and (4) a motion for leave to file an amended complaint. (ECF No.
43, May 30, 2018.)
In the interim, Defendants issued a notice of deposition and subpoena duces tecum to
Plaintiff to appear at the Philadelphia Office of the United States Attorney on July 9, 2018. (ECF
No. 47, Ex. 1.) On June 24, 2018, Plaintiff moved to quash the notice of deposition and sought a
protective order, claiming medical and financial hardship. (ECF No. 47.) Finding no basis to quash
the deposition, I denied Plaintiffs motion to quash, acceded to Plaintiffs request that her deposition
not be held at the U.S. Attorney’s office, and ordered her to appear for the scheduled deposition in
the United States Courthouse. (ECF No. 52.) Plaintiff then filed her first motion for recusal alleging
that both my staff and the assigned Magistrate Judge were not impartial and were showing
favoritism to Defendants’ counsel. (ECF No. 56.)
On July 16, 2018, I denied Plaintiffs two motions for reconsideration, motion to stay
discovery, second motion to alter judgment, motion to deem the February 7, 2018 Order a “final”
order, multiple motions for leave to file an amended complaint, motion for appointment of counsel,

3

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 4 of 15

motion to sanction defense counsel, and first motion for recusal.1 (ECF No. 63.) This Order
prompted Plaintiffs second motion for recusal. (ECF No. 65.)
Plaintiff failed to appear for her deposition on July 9,2018, and emailed Defendants’ counsel
one hour prior to the deposition to state that she was not feeling well and was not up for the drive
to Philadelphia. (ECF No. 59, Ex. 2.) Defendants then filed a motion to dismiss for lack of
prosecution or, in the alternative, to compel discovery. (ECF No. 59.) On July 26, 2018,1 ordered
that Plaintiff “appear for a deposition, with the documents requested in Defendants’ subpoena, to
the United States Courthouse ... in a courtroom to be determined, at a date and time to be agreed
upon by the parties, but in no event later than thirty (30) days from the date of this Order.” (ECF
No. 66 (emphasis omitted).) I again tried to address Plaintiffs stated concerns about the deposition
process and ordered that the only persons permitted to be present at the deposition were Plaintiff,
any counsel she may retain, counsel for Defendants, and the court reporter. Finally, I directed that
if Plaintiff failed to either reasonably agree to a date and time for her deposition or appear for her
deposition, her case may be dismissed for lack of prosecution. (Id f 4.) I also denied Plaintiffs
second motion for recusal for the same reasons as set forth in the July 16, 2018 order. (Id.)
Defense counsel emailed Plaintiff on July 26, 2018, to request dates for her deposition.
(ECF No. 69, Ex. 1.) Plaintiff declined to provide these dates and responded that she was going to
report defense counsel to the Pennsylvania Bar Association for “Attorney Misconduct.” (Id)
Defense counsel followed up with Plaintiff the next day on the request for deposition dates, but
received no response. (ECF No. 64, Ex. 4.)

With respect to the recusal motion, I noted that Plaintiff s claims of bias and prejudice were based
on her disagreement with many of the judicial rulings. As it is well established that “disagreement
with a judge’s determinations and rulings cannot be equated with the showing required to so reflect
on impartiality as to require recusal,” (See ECF No. 63, pp. 5-6 n.9 (quoting In re TMI. 193 F.3d
613, 728 (3d Cir. 1999)), I denied Plaintiffs motion.
4

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 5 of 15

On August 6, 2018, Plaintiff filed a motion for protective order to “enjoin defendants and
defense counsel from further harassment, revenge, retaliation, witness intimidation and inciting
violence against Plaintiff.” (ECF No. 67.)

A week later, she filed her first motion to compel

discovery. (ECF No. 68.)
On August 20, 2018, Defendants filed the current Motion to Dismiss alleging that Plaintiff
refused to provide defense counsel available deposition dates. (ECF No. 69.) They asserted that
because Plaintiff refused to comply with the Court’s orders, there was good cause to dismiss her
case with prejudice. (Id.) Two days later, Plaintiff filed a third motion for recusal. (ECF No. 70.)
On September 3, 2018, she filed a response in opposition to the Motion to Dismiss (ECF No. 73),
and, on September 12, 2018, she submitted another response and a “Motion for Sanctions Against
Defense Counsel and Defendant for Abusing Judicial Policies.” (ECF No. 75.)
To date, Plaintiff has refused to appear for her deposition.
II.

DISCUSSION
Federal Rule of Civil Procedure 41(b) provides:
(b) Involuntary Dismissal; Effect. If the plaintiff fails to prosecute
or to comply with these rules or a court order, a defendant may move
to dismiss the action or any claim against it. Unless the dismissal
order states otherwise, a dismissal under this subdivision (b) and any
dismissal not under this rule—except one for lack of jurisdiction,
improper venue, or failure to join a party under Rule 19—operates as
an adjudication on the merits.

Fed. R. Civ. P. 41(b).
The United States Court of Appeals for the Third Circuit has recognized that “[djistrict court
judges, confronted with litigants who flagrantly violate or ignore court orders, often have no
appropriate or efficacious recourse other than dismissal of the complaint with prejudice.” Mindek
y.-...Rigatti, 964 F.2d 1369, 1373 (3d Cir. 1992). To determine the propriety of punitive dismissals,

5

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 6 of 15

the Third Circuit, in Poulis v. State Farm Fire and Casualty Co.. 747 F.2d 863 (3d Cir. 1984), has
outlined a series of factors to be considered. The six Poulis factors include:
(1) the extent of the party’s personal responsibility; (2) the prejudice
to the adversary caused by the failure to meet scheduling orders and
respond to discovery; (3) a history of dilatoriness; (4) whether the
conduct of the party or the attorney was willful or in bad faith; (5) the
effectiveness of sanctions other than dismissal, which entails an
analysis of alternative sanctions; and (6) the meritoriousness of the
claim or defense.
Poulis. 747 F.2d at 868. Although “[dismissal is a harsh remedy and should be resorted to only in
extreme cases,” Marshall v. Sielaff. 492 F.2d 917, 918 (3d Cir. 1974), not all of the Poulis factors
need be satisfied in order to dismiss a complaint.” Mindek. 964 F.2d at 1372. Indeed, there is no
“magic formula” or “mechanical calculation” with regard to the Poulis analysis. Briscoe v. Klaus.
538 F.3d 252,263 (3d Cir. 2008) (quoting Mindek. 964 F.2d at 1372). Instead, the decision should
be made “in the context of the district court’s extended contact with the litigant.” Mindek. 964 F.2d
at 1373. A court retains the inherent authority to dismiss a case in order to manage its own affairs
and “achieve the orderly and expeditious disposition of cases.”

Marshall. 492 F.2d at 918

(quotations omitted).
With these principles in mind, I consider the Poulis factors in the context of this case.
A.

Personal Responsibility

“The first Poulis factor is an inquiry into the noncompliant party’s personal responsibility.”
In re Avandia Mktg.. Sales Practices & Prods. Liab. Litig.. 319 F.R.D. 480, 485 (E.D. Pa. 2017).
This factor focuses more closely on whether the party himself has failed to comply with the court’s
orders as opposed to whether counsel for the party is responsible. Briscoe. 538 F.3d at 258-59;
Vittas v. Brooks Bros. Inc.. Grp.. No. 14-3617, 2017 WL 6316633, at *2 (D.N.J. Dec. 11, 2017).
“[I]t is logical to hold a pro se plaintiff personally responsible for delays in his case because a pro

6

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 7 of 15

se plaintiff is solely responsible for the progress of his case, whereas a plaintiff represented by
counsel relies, at least in part, on his or her attorney.” Briscoe. 538 F3d at 258-59.
Here, it is undisputed that Plaintiff, has refused to attend her scheduled deposition, proposing
either a deposition closer to Lancaster County, a phone deposition, or a deposition done entirely in
writing. She filed her litigation in this forum, was well aware of the date and time of the first
deposition, and was ordered to attend. She nevertheless failed to appear. Thereafter, she was
ordered to confer with Defendants’ counsel about a mutually agreeable date and time for a
rescheduled deposition, but failed to do so. Plaintiff does not attempt to deny her personal
responsibility. Accordingly, I find this Poulis factor to weigh in favor of dismissal.
B.

Prejudice to the Adverse Party

Under the second Poulis factor, “[ejvidence of prejudice to an adversary would bear
substantial weight in support of a dismissal or default judgment.” Adams v. Trustees of N.J.
Brewery Employees’ Pension Trust Fund, 29 F.3d 863, 873-74 (3d Cir. 1994) (internal quotation
marks and citation omitted). Prejudice is not limited to “irremediable” or “irreparable” harm.
Briscoe, 538 F.3d at 259; see also Ware v. Rodale Press. Inc.. 322 F.3d 218, 222 (3d Cir. 2003). It
also includes “the burden imposed by impeding a party’s ability to prepare effectively a full and
complete trial strategy.” Ware. 322 F.3d at 222. A finding of prejudice to the opposing party
“weighs heavily in favor of dismissal.” Huertas v. City of Philadelphia. No. 02-7955, 2005 WL
226149, at *3 (E.D. Pa. Jan. 26, 2005).
Here, Plaintiff s refusal to attend her deposition and comply with the subpoena duces tecum
has precluded the advancement of this litigation. Plaintiff initiated this suit and is the source for
most of the allegations. A plaintiff is required to prove his or her case, “as well as give the defendant
an opportunity to prepare against it.” Hicks v. Feenev. 850 F.2d 152,156 (3d Cir. 1988) (dismissing
case under Poulis for plaintiffs refusal to give a deposition); see also Preston v. MR Scrap, No. 167

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 8 of 15

2612,2017 WL 4222935, at *2 (E.D. Pa. Sept. 22,2017) (“Plaintiffs failure to submit to deposition
prevents Defendants from developing and implementing their trial strategy”); Smith v. Alteea
Credit Co., No. 02-8221, 2004 WL 2399773, at *5 (E.D. Pa. Sept. 22, 2004) (A “‘prolonged delay
in litigating a case creates a presumption of prejudice’ because it harms a defendant’s ability ‘to
present a full and fair defense on the merits of plaintiffs claim.’”) (quoting Beckman v. Integrated
Sys. Inf 1, Inc., No. 88-4534, 2002 WL 22832098 (E.D. Pa. Sept. 30, 2002)). This factor therefore
weighs in favor of dismissal as well.2
C.

History of Dilatoriness

The third Poulis factor looks at Plaintiffs history of dilatoriness. “Extensive or repeated
delay or delinquency constitutes a history of dilatoriness, such as consistent non-response to
interrogatories, or consistent tardiness in complying with court orders.” Chiarulli v, Taylor. No.
08-4400, 2010 WL 1371944, at *3 (D.N.J. Mar. 31, 2010) (quoting Adams. 29 F.3d at 874).
“[CJonduct that occurs one or two times is insufficient to demonstrate a ‘history of dilatoriness.’”
Briscoe, 538 F.3d at 261 (quotations omitted).

Rather, this factor is more concerned with

“consistent delay.” Id.
Plaintiff has certainly exhibited dilatoriness, having first resisted personally attending a Rule
16 conference and thereafter repeatedly refusing to appear for a deposition in Philadelphia. It is
true that Plaintiff otherwise has no history of delay and has met other deadlines in responding to
motions. But her refusal to be deposed has substantially delayed the discovery process in this case.
Accordingly, I find that this factor favors dismissal.

2 In addition, Defendants have suffered other prejudice aside from their inability to develop a
defense. Due to Plaintiff s last minute cancellation of the first deposition, Defendants incurred court
reporter fees. (ECF No. 59, Ex. 3.) Further, as they have been unable to re-schedule the deposition,
they were unable to file a motion for summary judgment prior to the August 14, 2018 deadline.
8

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 9 of 15

D.

Willfulness or Bad Faith

The fourth Poulis factor inquires whether the actions of a party suggest willfulness or bad
faith. A court must consider whether the conduct was “the type of willful or contumacious behavior
which was characterized as flagrant bad faith.” Adams. 29 F.3d at 875 (internal quotation marks
and citation omitted). Generally, “[wjillfulness involves intentional or self-serving behavior.” Id
“If the conduct is merely negligent or inadvertent, we will not call the conduct ‘contumacious.’”
Briscoe, 538 F.3d at 262; see also Poulis. 747 F.2d at 868-69 (finding that plaintiffs counsel’s
behavior was not contumacious because, although he had missed deadlines, there was no suggestion
that his delays were for any reason other than his poor health and his wife’s pregnancy issues). A
“persistent failure to honor discovery orders may be viewed as a willful effort to evade discovery.”
Huertas. 2005 WL 226149, at *4 (quotations omitted).
Plaintiff initially moved to quash Defendants’ subpoena alleging that travelling to and from
Philadelphia was “all-day and very taxing event.” (ECF No. 47, p. 1.) She claimed that it would
subject her to undue medical, physical, mental, and financial burden, especially given her health
problems and the ongoing heat. (Id at 2.) She also maintained that two weeks was insufficient
notice for her to gather the required documents and prepare for the trip from her home in Chester
County to Philadelphia.

(Id.) Finally, Plaintiff asserted that “a face-to-face oral deposition

(especially on Defense Counsel’s own turf) would signal an open invitation for Defense Counsel to
engage in a free-for-all feeding frenzy—predatory mobbing behavior—against a medically
vulnerable and un-represented plaintiff (in a forum where there would NOT be a neutral arbiter of
facts or referee).” (ECF No. 47, p.5.) She offered to appear for an oral deposition, conducted by
telephone, for a period of no more than sixty minutes. (Id at 5.)
Finding no basis to quash the subpoena, I denied the motion on July 26, 2018, and directed
Plaintiff to appear for a deposition at a date and time to be agreed upon by the parties, but “in no
9

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 10 of 15

event later than thirty (30) days from the date of this Order.” (ECF No. 66.) Taking into account
Plaintiffs fear of appearing in defense counsel’s offices alone, I further instructed that the
deposition take place in the courthouse and that the only persons permitted to be present were
Plaintiff, any counsel she may retain, counsel for Defendants and the court reporter. (Id.) In that
same Order, I warned that “[s]hould Plaintiff fail to (a) reasonably agree to a date and time for her
deposition and/or (b) appear for her deposition, her case may be dismissed for lack of prosecution.”
(Id) That same day, Plaintiff emailed my Chambers to state that she would not come to Philadelphia
for a deposition unless someone arranged a U.S. Marshal escort for her. (ECF No. 69, Ex. 3.)
Eleven days later, on August 6,2018, Plaintiff filed a “Motion for Protective Order to Enjoin
Defendants and Defense Counsel from Further Harassment, Revenge, Retaliation, Witness
Intimidation, and Inciting Violence Against Plaintiff.” (ECF No. 67.) In a twenty-four page brief,
Plaintiff accused defense counsel of exploiting the court system, engaging in witness intimidation,
and inciting violence against her. (Id) A week later, Plaintiff filed a motion to compel discovery
that lodged additional allegations against Court staff and defense counsel, and demanded discovery
on a wide range of topics beyond her remaining claim of invasion of privacy. (ECF No. 68.)
On August 20,2018, having yet to secure a date from Plaintiff for her deposition availability,
Defendants filed a motion to dismiss for lack of prosecution. In that motion, defense counsel
explained that they had emailed and sent a certified letter to Plaintiff, informing her about the
Court’s Order and requesting dates of availability for deposition. (ECF No. 69.) As of the date of
the motion, Plaintiff has not replied to their request.
Plaintiff responded to Defendants’ motion with a third motion for recusal seeking to
preclude Court staff and defense counsel’s further involvement with the case. (ECF. No. 70.) Over
the course of forty pages, Plaintiff lodged serious, but unsubstantiated, accusations against various

10

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 11 of 15

individuals.3 She then responded to the current motion to dismiss, arguing that she faced lifethreatening harm and extreme danger if she appeared for the deposition, and that Defendants had
numerous alternatives by which to obtain the information they needed. (ECF No. 73.) Via that
same response, Plaintiff again accused defense counsel of harassment and lodged ethical
accusations against Court staff. (Id.) In a September 12, 2018 filing, Plaintiff accused Defendants
and defense counsel of “putting] out a hit on Plaintiff’ and requested sanctions against defense
counsel. (ECF No. 75, p. 15.)
Given this history, I find that Plaintiffs repeated disregard of Court orders and refusal to
appear for a deposition was done in bad faith. Federal rules require “plaintiff or its agents to appear
for the taking of depositions in the district in which the suit is brought,” South Seas Catamaran. Tnc.
v. Motor Vessel Leeway. 120 F.R.D. 17, 21 (D.N.J. 1988). Plaintiff complained about threats to
her safety, yet nothing in defense counsel’s actions evidence that she ever faced any risk. Despite
the fact that I arranged for the deposition to be held in the Courthouse to accommodate her concerns,
Plaintiff continued to offer a multitude of ever-changing and unsupported reasons for why she could
not appear and why Defendants did not need her deposition or discovery. She also lodged multiple
serious accusations against defense counsel, who, by all accounts, did nothing other than proceed
through the normal course of adversarial litigation. As Plaintiffs actions were “intentional” and
“self-serving,” I find that this Poulis factor favors dismissal.

Specifically, she alleged, for example, that (a) the Court was abusing its authority by
manufacturing false law and cooperating with defense counsel; (b) defense counsel was purposely
placing her in harm’s way; (c) that defense counsel has been using an intimidation campaign and
that the Court has condoned these actions; (d) that Court staff was interfering with the fair
adjudication of the case; (e) that the Court had predetermined the disposition of this case; (f) that
Defendants and defense counsel were knowingly subjecting Plaintiff to health and safety risks;
(g) that Court staff were cooperating with defense counsel to coerce her into dropping her complaint
or “entrapping” her; and (h) that Defendants, through defense counsel and Court staff, were
targeting Plaintiff as a member of a vulnerable population. (See ECF No. 70.)
11

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 12 of 15

E.

The Effectiveness of Sanctions Other Than Dismissal

The fifth Poulis factor considers whether alternative sanctions would be more effective than
dismissal. Generally, a district court “should be reluctant to deprive a plaintiff of the right to have
his claim adjudicated on the merits[,]” Titus v. Mercedes Benz of North Am.. 695 F.2d 746, 749
(3d Cir. 1982), and therefore “must consider the availability of sanctions alternative to dismissal.”
Briscoe. 538 F.3d at 262. The Third Circuit has recognized that alternative sanctions “include a
warning, a formal reprimand, placing the case at the bottom of the calendar, a fine, the imposition
of costs or attorney fees, the temporary suspension of the culpable counsel from practice before the
court, . . . dismissal of the suit unless new counsel is secured[,] ... the preclusion of claims or
defenses,orthe imposition offees and costs upon plaintiffs counsel under 28 U.S.C. § 1927.” Titus.
695 F.2d at 749 n.6.
A factually-analogous case from the Third Circuit offers some guidance on the application
of this Poulis factor. In Hicks v. Feeney. 850 F.2d 152 (3d Cir. 1988), the plaintiff was involuntarily
committed to a state hospital and subsequently brought a § 1983 action against the director of the
hospital for alleged deprivation of procedural due process. Id at 153-54. In connection with his
suit, the plaintiff was deposed for forty minutes, after which he refused to answer any more
questions and failed to return after the break. Id at 154. He subsequently failed to appear for other
scheduled depositions. Id The plaintiffs counsel then emailed the court indicating that the plaintiff
“did not want to discuss what he believed to be extremely private matters concerning what happened
to him while he was confined at the Delaware State Hospital.” Id

The court ordered the plaintiff

to appear at a deposition and pay for the costs of the previous depositions. It further warned that
additional sanctions, including outright dismissal, would be imposed if he failed to appear. Id at
154-55. The plaintiff did not appear again. Id at 155. When defendant moved for sanctions,
plaintiff agreed to waive his “actual” injury claim, but still press for presumed and punitive
12

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 13 of 15

damages. Id The plaintiff also suggested that even a $1.00 award of nominal damages would be
an alternative sanction to an outright dismissal. Id Nonetheless, the district court dismissed the
case.
On appeal, the Third Circuit reviewed the Poulis factors and declined to find any abuse of
discretion, noting that the plaintiffs conduct was willful, that review of the record revealed no
conduct by defense counsel to intimidate or harass the plaintiff, and the defendant suffered
substantial prejudice from the plaintiffs failure to appear at the depositions. Id. at 156. It remarked,
“[ajlthough we sympathize with Hicks’s reluctance to recount the facts surrounding his
incarceration at DSH, he is the plaintiff and as such must prove his case, as well as give the
defendant an opportunity to prepare against it.” Id Turning to the possibility of alternative
sanctions, the Third Circuit agreed with the district court that a lesser sanction would not be
appropriate. Id, at 157. It noted that the district court properly considered alternatives, such as
precluding the plaintiff from testifying about his mental status, prohibiting evidence rebutting the
hospital’s medical records, and finding that the plaintiff suffered no actual injuries, thereby
precluding compensatory damages. Id It found no error in the district court’s ultimate conclusion
that the case simply could not proceed on presumed and punitive damages without giving the
defendant an opportunity to depose the plaintiff. Id4
Considering the Poulis factors, and specifically whether alternative sanctions were an
option, the court found that no other sanctions would be effective. Id at *4. It found that monetary

4 See also Preston v, EMR Scrap. No. 16-2612, 2017 WL 4222935 (E.D. Pa. Sept. 22, 2017)
(dismissing case for plaintiffs repeated failure to appear for his deposition, reasoning that “[a]
party’s failure to attend his own deposition on multiple occasions without informing counsel and in
direct violation of a Court Order is obviously unacceptable conduct .... “); Huertas v. City of
Philadelphia. No. 02-7955, 2005 WL 226149 (E.D. Pa. Jan. 26, 2005) (dismissing case for
plaintiffs failure to attend deposition, especially after court accommodated plaintiffs fear of
heights and ordered that deposition take place no higher than the second floor of a building).
13

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 14 of 15

sanctions were unhelpful because the plaintiff was proceeding in forma pauperis and that lesser
sanctions dismissing portions of the plaintiff s case, prohibiting the plaintiff from introducing
certain matters into evidence, or staying the case would not be helpful and would likely harm
defendants by forcing them to expend more time and money on the case. Id at *4.
Similarly here, I find that no other possible sanctions would be effective. In light of
Plaintiff s pro se status, fines are not a viable option. Plaintiff has already received warnings in the
form of orders directing her to comply with deposition notices. Finally, Plaintiff has only one claim
remaining, meaning that the preclusion of her one claim would be tantamount to a dismissal.
Plaintiff has not only failed to appear for her deposition in Philadelphia, but has affirmatively
indicated both her refusal to appear and her unwillingness to abide by the Court’s orders. Due
consideration of the possible alternatives leads me to conclude that dismissal with prejudice is an
appropriate sanction in this case.
G.

Meritoriousness of the Claim or Defense

The final factor under Poulis looks at the meritoriousness of the plaintiffs claim or the
defendant’s defense. The standard of meritoriousness when reviewing a dismissal is not stringent:
[W]e do not purport to use summary judgment standards. A claim, or
defense, will be deemed meritorious when the allegations of the
pleadings, if established at trial, would support recovery by plaintiff
or would constitute a complete defense.
Poulis. 747 F.2d at 869-870.
Although almost all of Plaintiff s claims in her Complaint were dismissed, her invasion of
privacy claim survived a motion to dismiss. This claim, if substantiated by discovery, could
potentially warrant a recovery by Plaintiff. I would be remiss, however, to disregard the relatively
scant nature of Plaintiff s allegations in support of this claim. Plaintiff alleges that a Coatesville
VA employee provided unauthorized access and disclosure of Plaintiff s private health information
14

Case 2:17-cv-01551-MSG Document 76 Filed 02/21/19 Page 15 of 15

to Plaintiff s brother, who is also a Coatesville VA employee. (Compl. at p. 15.) To substantiate
this claim, Plaintiff has offered few supporting facts and Defendants have yet had the opportunity
to obtain discovery to test the merits of this claim. Therefore, I deem this Poulis factor neutral.
H.

Conclusion as to Poulis Factors

Upon careful review of the Poulis factors, I find that Plaintiffs repeated refusal to appear
for a deposition in defiance of Court orders constitutes adequate grounds for dismissal of this case.
Plaintiff initiated this action and has propounded numerous requests for discovery, while giving no
discovery in return. Moreover, she has lodged numerous, unfounded accusations against defense
counsel, Court staff, and others. In turn, Defendants have been completely stymied in their ability
to investigate and defend this case. As Poulis factors one, two, three, four, and five weigh heavily
in favor of dismissal, and factor six is neutral, Plaintiffs Complaint will be dismissed with
prejudice.
III.

CONCLUSION
In light of the foregoing, I will grant Defendants’ Motion to Dismiss for Lack of Prosecution.

An appropriate Order follows.

15

Case 2:17-cv-01551-MSG Document 83 Filed 03/25/19 Page 1 of 1
V

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff,
v.
NO. 17-1551
UNITED STATES, etal.
Defendants.
ORDER
AND NOW, this 25th day of March, 2019, upon consideration of Plaintiff’s Motion for
Reconsideration (Doc. No. 82), it is hereby ORDERED that the Motion is DENIED.1
BY THE COURT:
/s/Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

J.

1 A motion for reconsideration or motion to alter or amend judgment is properly raised under
Federal Rule of Civil Procedure 59(e). Keifer v. Reinhart Foodservs.. LLC. 563 F. App’x 112 (3d
Cir. 2014). “The standard for obtaining relief under Rule 59(e) is difficult to meet.” Invista N. Am.
S.A.R.L. v. M & G USA Corp.. 35 F. Supp. 2d 583 (D. Del. 2014). The purpose of a motion for
reconsideration is to “correct manifest errors of law or fact or to present newly discovered
evidence.” Max’s Seafood Cafe ex rel. Lou-Ann. Inc, v. Quinteros. 176 F.3d 669, 677 (3d Cir.
1999) (quotations omitted). “A court should exercise its discretion to alter or amend its judgment
only if the movant demonstrates one of the following: (1) a change in the controlling law; (2) a
need to correct a clear error of law or fact or to prevent manifest injustice: or (3) availability of
new evidence not available when the judgment was granted.” Keifer. 563 F. App’x at 115. A
motion for reconsideration is not an “opportunity for a party to relitigate already decided issues
and should not be used ‘to put forward additional arguments, which [the movant] could have made
but neglected to make before judgment.’" Garzella v. Borough of Dunmore. No. 05-1626, 2007
WL 1450416, at *2 (M.D .Pa. May 15,2007) (quoting Dodge v. Susquehanna Univ., 796 F. Supp.
829, 830 (M.D. Pa. 1992)). Stated differently, a motion for reconsideration “is not proper where it
simply asks the court to rethink what [it] had already thought through—rightly or wrongly.”
Romero v. Allstate. 1 F. Supp. 3d 319, 420 (E.D. Pa. 2014) (internal quotation marks omitted).
Plaintiffs Motion is premised on the assertion that the February 21, 2019 final judgment
was premised on a clear error of fact or law. In support of this Motion, however, Plaintiff simply
rehashes the same arguments that I previously considered and rejected. Accordingly,
reconsideration is unwarranted.
Appendix B

3

Case 2:17-cv-01551-MSG Document 63 Filed 07/16/18 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff,
v.
NO. 17-1551
UNITED STATES,
Defendant.
ORDER
AND NOW, this 16th day of July, upon consideration of Plaintiffs Motions under (1)
Rules 54(b), 59(e) and 60 for “Review and Revise Interlocutory Order; Partial Reconsideration;
Alter Judgment; and for Relief from Partial Judgment . . . Motion for Leave to Amend and
Supplement Pleadings; Motion for Leave to Retain Effective Legal Counsel; Request for Limited
Discovery; Motion to Strike Defendant’s Pleadings and Sanction Defense Counsel for
Misconduct” (Doc. No. 18); (2) Plaintiffs Motion to “Stay Discovery, Scheduling and Other
Proceedings and Stay Enforcement of Partial Judgment Pending Determination on Plaintiffs
Request for Reconsideration and Any Possible Ensuing Interlocutory Appeal” (Doc. No. 30);
(3) Plaintiff s supporting documents and attachments to these Motions (Doc. Nos. 19-21,26, and
29); (4) Defendant’s Response to Plaintiff’s Motions and Attachments at Docket Nos. 18-21, 26,
29, and 30 (Doc. No. 34); (5) Plaintiff’s Second “Rule 54 Motion to Alter/Reverse Partial
Judgment or in the Alternative 54b Final Determination Declaration of Final Judgment, and
Motion Reply to Defendant’s Opposition to Plaintiff Request for Review, Reconsideration,
Reversal” (Doc. No. 35); (6) Plaintiff’s Motion for Leave to File an Amended Complaint (Doc.
No. 43); (7) Plaintiffs Motion for Leave to File an Amended Complaint (Doc. No. 44);
(8) Defendant’s Response to Plaintiffs Motions for Leave to File an Amended Complaint (Doc.

Appendix B

4

Case 2:17-cv-01551-MSG Document 63 Filed 07/16/18 Page 2 of 6

No. 45); (9) Plaintiffs Reply in Support of Motion for Leave to File an Amended Complaint
(Doc. No. 46); (10) Plaintiffs Motion for Recusal (Doc. No. 56); and Defendant’s Response to
Motion for Recusal (Doc, No. 61), it is hereby ORDERED all of the aforementioned Motions
are DENIED IN THEIR ENTIRETY as follows:
1. Plaintiffs Motions for Reconsideration of the Court’s February 7, 2018
Memorandum and Order under Federal Rule of Civil Procedure 59(e) are DENIED.1
2. Plaintiff s request to deem the February 7, 2018 Memorandum and Order “final” for
purposes of appeal under Federal Rule of Civil Procedure 54(b) is DENIED.2

A motion for reconsideration is the “functional equivalent” of a motion to alter or amend
judgment under Federal Rule of Civil Procedure 59(e). Jones v. Pittsburgh Nat’l Corp.. 899 F.2d
1350, 1352 (3d Cir. 1990). “The standard for obtaining relief under Rule 59(e) is difficult to
meet” favista N. Am. S.A.R.L. v. M & G USA Coro.. 35 F. Supp. 3d 583, 593 (D. Del. 2014).
The purpose of a motion for reconsideration is to “correct manifest errors of law or fact or to
present newly discovered evidence.” Max’s Seafood Cafe ex rel. Lou-Ann Inc, v. Quinteros.
176 F.3d 669, 677 (3d Cir. 1999) (quotations omitted). “A court should exercise its discretion to
alter or amend its judgment only if the movant demonstrates one of the following: (1) a change
in the controlling law; (2) a need to correct a clear error of law or fact or to prevent manifest
injustice; or (3) availability of new evidence not available when the judgment was granted.”
Keifer v. Reinhart Foodservs.. LLC. 563 F. App’x 112,115 (3d Cir. 2014) (quotations omitted).
Notably, “[a] motion for reconsideration is not to be used as a means to reargue matters
already argued and disposed of or as an attempt to relitigate a point of disagreement between the
Court and the litigant.” Ogden v. Keystone Residence. 226 F. Supp. 2d 588, 606 (M.D. Pa.
2002) (quotations omitted). “Because federal courts have a strong interest in the finality of
judgments, motions for reconsideration should be granted sparingly.” In re Asbestos Prods.
Liab. Litig. (No. VI), 801 F. Supp. 2d 333, 334 (E.D. Pa. 2011) (quoting Cont’l Cas. Co. v.
Diversified Indus., Inc.. 884 F. Supp. 937, 943 (E.D. Pa. 1995)).
Plaintiff s Motion does not present any of the requisite grounds for reconsideration. She
has not pointed to any interim change in the controlling law, identified any clear error of law or
fact, or produced any new evidence not available at the time the judgment was issued.
2

Under Rule 54(b), “a district court may convert an order adjudicating less than an entire
action to the end that it becomes a ‘final’ decision over which a court of appeals may exercise
jurisdiction under 28 U.S.C. § 1291.” Elliott v. Archdiocese of New York. 682 F.3d 213, 219
(3d Cir. 2012). “By allowing a district court to enter a final judgment on an order adjudicating
only a portion of the matters pending before it in multi-party or multi-claim litigation and thus
allowing an immediate appeal, Rule 54(b) ‘attempts to strike a balance between the
undesirability of piecemeal appeals and the need for making review available at a time that best
2

Case 2:17-cv-01551-MSG Document 63 Filed 07/16/18 Page 4 of 6

5. Plaintiff s multiple Requests to Amend and/or Supplement Pleadings are DENIED.5

by incarceration; (3) the complexity of the legal issues; (4) the degree to which factual
investigation is required and the plaintiffs ability to pursue such investigation; (5) the plaintiffs
capacity to retain counsel on his or her own behalf; and (6) the degree to which the case turns on
credibility determinations or expert testimony. See Montgomery. 294 F.3d at 499 /citing Tabron
6 F.3d at 155).
’
Plaintiff here is not proceeding in forma pauperis and has not shown any financial
inability to privately retain counsel. Moreover, Plaintiff has demonstrated ample ability to
represent herself and pursue her claims. As such, appointment of counsel under the Tabron
factors is not warranted.
Federal Rule of Civil Procedure 15(a)(2) provides that when a party makes a request to
amend its complaint, “[t]he court should freely give leave when justice so requires.” Fed. R.
Civ. P. Rule 15(a)(2). Nevertheless, “[t]he policy favoring liberal amendment of pleadings is not
. . . unbounded.” Dole v. Arco Chem. Co.. 921 F.2d 484, 487 (3d Cir. 1990). When a party
moves to amend its complaint simultaneously with a motion to amend a final judgment pursuant
to Rule 59, “the liberality of Rule 15(a) is no longer applicable.” Burtch v. Milberg Factors. Inc..
662 F.3d 212, 230 (3d Cir. 2011). Instead, the Rule 15 and 59 inquiries turn on the same factors,
with a view to “favoring finality of judgments and the expeditious termination of litigation.” Id.
at 231 (quotations omitted). A district court may deny leave to amend a complaint where “it is
apparent from the record that (1) the moving party has demonstrated undue delay, bad faith or
dilatory motives, (2) the amendment would be futile, or (3) the amendment would prejudice the
other party.” Lake v. Arnold. 232 F.3d 360, 373 (3d Cir. 2000) (citing Foman v. Davis. 371 U.S.
178, 182 (1962)).
Plaintiff s proposed amended complaint (attached to her motions at docket numbers 43
and 44) attempts to reassert all of her claims that were dismissed by the Court for lack of subject
matter jurisdiction under Federal Rule of Civil Procedure 12(b)(1) and to allege several new
claims under the Privacy Act and Americans With Disabilities Act. She posits that her
amendments will serve several purposes: (a) clarify the Court’s jurisdiction under the FTCA; (b)

make clearer statements about the government’s vicarious liability; (c) clarify relevant
statutes/regulations/policies that impose a duty of care on the VA; (d) make clearer statements
about the federal policies and regulations; (e) present clearer context for the VA’s affirmative
duty; (f) more clearly explain the agency’s duty of care; (g) clarify the link between negligence
per se and violations of HIPAA, Privacy Act, ADA and various agency regulations and state
laws; (h) more clearly elucidate relevant Restatement Torts; (i) make a clearer statement on
federal statutes that implicate government employee off-duty misconduct on government
premises; (j) more clearly connect Pennsylvania Supreme Court and U.S. Supreme Court rulings
to claims; (k) clarify the connection between the Restatement (Second) of Torts § 213 and VA
use of the Agency’s instrumentalities; and (1) request declaratory relief under multiple statutes.
(Doc. No. 18, at p. 4.)
These proposed amendments are not proper for several reasons. First, all of Plaintiffs
claims, but for her privacy claim, were dismissed without prejudice for lack of subject-matter
jurisdiction. Plaintiff may not simply rekindle these claims through an amended complaint.
Second, Plaintiff does not purport to offer new facts that would establish a basis for the Court to
4

Case 2:17-cv-01551-MSG Document 63 Filed 07/16/18 Page 5 of 6

6. Plaintiffs request for limited discovery of relevant agency information is DENIED.6
7. Plaintiffs Motion to Stay Discovery, Scheduling and Other Proceedings, and Stay
Enforcement of Partial Judgment is DENIED.7
8. Plaintiffs Motion to Strike Defendant’s Pleadings and Sanction Defense Counsel for
Misconduct is DENIED. 8
9. Plaintiffs Motion for Recusal (Doc. No. 56) is DENIED.9

exercise jurisdiction. Rather, she seeks to present new legal arguments to justify the merits of
her claims. Aside from the fact that these new arguments do not overcome the jurisdictional
problems identified in my Memorandum of February 7, 2018, such contentions are not
appropriate for an amended complaint, but rather should have been raised in response to the
Motion to Dismiss. See Reeinella Constr. Co,. Ltd, v. Travelers Cas. & Sur. Co. of Am.. 971 F.
Supp. 2d 470,479 (W.D. Pa. 2013) (holding that a party cannot “file an amended complaint that
contains new facts and legal arguments that could have been raised before the original complaint
was dismissed”). Finally, my March 23, 2018 Scheduling Order specifically directed that all
motions to amend the complaint should be filed within fourteen days from the date of the Order.
(Doc. No. 28). Although Plaintiff had previously requested leave to amend in her March 14,
2018 Motion for Reconsideration, she delayed in offering any proposed amended complaint until
May 16,2018, well after discovery had already begun.
Plaintiffs March 14, 2018 Motion requested discovery of relevant agency information
“not accessible” to her. (Doc. No. 18, at p. 5.) Contrary to Plaintiffs assertion, however, all
agency regulations relevant to whether the Court has jurisdiction over her dismissed claims were
and are publicly available. At this point, a Scheduling Order is in place setting forth a time
period during which Plaintiff may seek any discovery related to her remaining claim.
7 In her March 26, 2018 Motion (Doc. No. 30), Plaintiff requested a stay of discovery,
scheduling, and other proceedings pending a ruling on her request for reconsideration. As these
motions have been ruled upon, there is no basis for staying the proceedings.
8

Plaintiff has requested that I sanction defense counsel and strike Defendant’s pleadings for
“knowingly and intentionally advancing discriminatory disinformation and encouraging the
Court to Discriminate Against Plaintiff—hence affording her unequal and inferior Justice;”
“accessing Plaintiff’s medical records without her consent;” and “[pjersistently using deception
and misinformation to distract, deceive and derail the judicial process and sabotage Plaintiffs
case.” (Doc. No. 18, at p. 5.) Plaintiff has not identified any evidence of this alleged misconduct
and, having reviewed defense counsel’s filings in this matter, I find no basis for imposing any
sanctions.
9 Plaintiff appears to suggest that because the legal rulings issued here have been unfavorable,
there must be some underlying bias. It is well established that “disagreement with a judge’s
5

Case 2:17-cv-01551-MSG Document 63 Filed 07/16/18 Page 6 of 6

BY THE COURT:

/s/ Mitchell S. Goldberg

MITCHELL S. GOLDBERG,

J.

determinations and rulings cannot be equated with the showing required to so reflect on
impartiality as to require recusal.” In re TMI. 193 F.3d 613, 728 (3d Cir. 1999). Plaintiff’s
claims of bias and prejudice based on judicial rulings with which she disagrees are, therefore, a
legally insufficient basis on which to premise a request for recusal.

6

Case 2:17-cv-01551-MSG Document 52 Filed 06/29/18 Page 1 of 1

i

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,

CIVIL ACTION

Plaintiff,

v.

NO. 17-1551

UNITEDSTATES,
Defendant.
ORDER
AND NOW, this 29th day of June, 2018, upon consideration ofPlaintiff s Motion to
Quash Defendant’s Notice of Deposition and Subpoena (Doc. No. 47) and Defendant’s Response
(Doc. No. 51), it is hereby ORDERED that the Motion is D E NI E D. Plaintiff shall appear for
the deposition with the documents requested in Defendant’s subpoena to the United States
Courthouse, 601 Market Street, Philadelphia, PA 19106 at 11:00 a.m. on July 9, 2018, in a
courtroom to be determined. Plaintiff and counsel for the Government shall contact Chambers at
267-299-7500 the Friday prior to July 9 regarding the courtroom assignment.
BY THE COURT:

/s/ Mitchell S. Goldberg
MITCHELLS. GOLDBERG,

J.

.>

i
Appendix B

5

Case 2:17-cv-01551-MSG Document 42 Filed 05/29/18 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN
CIVIL ACTION
Plaintiff,
v.
NO. 17-1551
UNITED STATES,
Defendant.
ORDER
AND NOW, this 29th day of May, 2018, upon consideration of Plaintiff’s proposed
“Amended Complaint” (Doc. No. 39), it is hereby ORDERED that because Plaintiff has neither
obtained consent from Defendants nor requested leave to file an amended complaint as required
by Federal Rule of Civil Procedure 15(a)(2), the “Amended Complaint” shall not be filed.

BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

Appendix B

6

J.

Case 2:17-cv-01551-MSG Document 23 Filed 03/20/18 Page 1 of 1

ll\l THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff
v.
NO. 17-1551
UNITED STATES, ETAL,
Defendants.
ORDER
AND NOW, this 20th day of March, 2018, upon consideration of Plaintiff s letter of
March 19, 2018 (Doc. No. 22) requesting that the Rule 16 conference on March 22nd be
cancelled and/or conducted by telephone, it is hereby ORDERED that the request is DENIED
and that all parties shall appear for the Rule 16 conference at 11:30 a.m. in Courtroom 4-B.

BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

Appendix B

7

J.

Case 2:17-cv-01551-MSG Document 17 Filed 02/28/18 Page 1 of 1

m THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff,
v.
NO. 17-1551
UNITED STATES, ET AL..
Defendants.
ORDER
AND NOW, this 27th day of February, 2018, upon consideration of Plaintiff’s letter of
February 27, 2018 (Doc. No. 16), it is hereby ORDERED that Plaintiff shall have until March
16, 2018 to file a motion for reconsideration of the Court’s February 7,2018 Memorandum and
Order (Doc. No. 13). The other requests in Plaintiff’s letter are DENIED.
BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

Appendix B

8

|

J.

Case 2:17-cv-01551-MSG Document 13 Filed 02/07/18 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN
CIVIL ACTION
Plaintiff

v.
NO. 17-1551
UNITED STATES. ET AL..
Defendants.
ORDER
AND NOW, this 6th day of February, 2018, upon consideration of Defendants’ Motion
to Dismiss Plaintiffs Complaint (Doc. No. 6), Plaintiffs Response in Opposition and Countermotion for Summary Judgment (Doc. No. 9), Defendants’ Reply and Response in Opposition to
the Counter-motion (Doc. No. 10), and Plaintiffs Reply (Doc. No. 11), it is hereby ORDERED
as follows:
1.

Defendants’ Motion to Dismiss (Doc. No. 6) is GRANTED IN PART and

DENIED IN PART:

2.

a.

Counts 1-3 and 5-14 of the Complaint are dismissed for lack of subjectmatter jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1);

b.

Count 15 of the Complaint is dismissed for failure to state a claim
pursuant to Federal Rule of Civil Procedure 12(b)(6);

c.

Count 4 of the Complaint is dismissed against all Defendants EXCEPT
Defendant United States of America.

Plaintiffs Counter-motion for Summary Judgment (Doc. No. 9) is DENIED.

BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

Appendix B

9
J

J.

Case 2:17-cv-01551-MSG Document 63 Filed 07/16/18 Page 3 of 6

3. Plaintiff s request for relief from a final judgment, order, or proceeding under Federal
Rule of Civil Procedure 60 is DENIED.3
4. Plaintiff s Motion for Appointment of Counsel is DENIED.4

serves the needs of the parties.’” Id at 220 (quoting Allis-Chalmers Coro, v. Philadelphia F W
Co., 521 F.2d 360, 363 (3d Cir. 1975)). “Certification of a judgment as final under Rule 54(b) is
the exception, not the rule, to the usual course of proceedings in a district court.” Id. In
determining whether to issue a 54(b) certification, the Third Circuit has enumerated the
following factors:
(1) the relationship between the adjudicated and unadjudicated
claims; (2) the possibility that the need for review might or might
not be mooted by future developments in the district court; (3) the
possibility that the reviewing court might be obliged to consider
the same issue a second time; (4) the presence or absence of a
claim or counterclaim which could result in set-off against the
judgment sought to be made final; (5) miscellaneous factors such
as delay, economic and solvency considerations, shortening the
time of trial, frivolity of competing claims, expense, and the like.
Allis-Chalmers. 521 F.3d at 364.
Plaintiff has not offered any analysis under these factors. My independent review of
these factors reveals no basis to grant the requested certification. Plaintiff retains an invasion of
privacy claim against Defendant that is highly intertwined with the facts underlying the
dismissed claims. Allowing interlocutory appeal of the dismissed claims, prior to a final
determination on the privacy claim, may result in piecemeal litigation and/or appeals.
3

Rule 60(b) allows a court to relieve a party “from a final judgment, order, or proceeding.”
Fed. R. Civ. P. 60(b). The Third Circuit has held that Rule 60(b) “applies only to ‘final’
judgments and orders.” Penn West Assocs.. Inc, v. Cohen. 371 F.3d 118, 125 (3d Cir. 2004)
(quoting Torres v. Chater. 125 F.3d 166, 168 (3d Cir. 1997)). The Supreme Court defined a
“final decision” for purposes of appeal “generally [as] one which ends the litigation on the merits
and leaves nothing for the court to do but execute the judgment.” Catlin v. United States. 324
U.S. 229, 233 (1945).
Plaintiff still maintains a claim against Defendant for invasion of privacy. Accordingly,
there has been no final judgment and Rule 60(b) does not apply.
A pro se litigant has no constitutional or statutory right to representation by counsel. See
Brightwell v. Lehman. 637 F.3d 187, 192 (3d Cir. 2011); Montgomery v. Pinchak. 294 F.3d 492,
498 (3d Cir. 2002). Representation by counsel of a pro se litigant proceeding in forma pauperis
may be appropriate under certain circumstances, after a finding that a plaintiffs claim has
arguable merit in fact and law. Tabron v. Grace. 6 F.3d 147, 153 (3d Cir. 1993). Factors to be
considered by a court in deciding whether to request a lawyer to represent an indigent plaintiff
include: (1) the merits of the plaintiffs claim; (2) the plaintiffs ability to present his or her case
considering his or her education, literacy, experience, and the restraints placed upon him or her
3

Case 2:17-cv-01551-MSG Document 13 Filed 02/07/18 Page 1 of 1

'n
v'

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN,
CIVIL ACTION
Plaintiff

v.
NO. 17-1551
UNITED STATES, ETAL,
Defendants.
ORDER
AND NOW, this 6th day of February, 2018, upon consideration of Defendants’ Motion
to Dismiss Plaintiff s Complaint (Doc. No. 6), Plaintiff s Response in Opposition and Countermotion for Summary Judgment (Doc. No. 9), Defendants’ Reply and Response in Opposition to
the Counter-motion (Doc. No. 10), and Plaintiffs Reply (Doc. No. 11), it is hereby ORDERED
as follows:
1.

Defendants’ Motion to Dismiss (Doc. No. 6) is GRANTED IN PART and
DENIED IN PART:

2.

a.

Counts 1-3 and 5-14 of the Complaint are dismissed for lack of subjectmatter jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1);

b.

Count 15 of the Complaint is dismissed for failure to state a claim
pursuant to Federal Rule of Civil Procedure 12(b)(6);

c.

Count 4 of the Complaint is dismissed against all Defendants EXCEPT
Defendant United States of America.

Plaintiff s Counter-motion for Summary Judgment (Doc. No. 9) is DENIED.
BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

Appendix B

10

J.

\

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 1 of 23

ll\l THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN
CIVIL ACTION

Plaintiff,

v.
NO. 17-1551

UNITED STATES, ETAL.
Defendants.
Goldberg, J.

February 6, 2018
MEMORANDUM OPINION

Plaintiff Blanche Brown, proceeding pro se, brings the current Federal Tort Claims Act
(“FTCA”) action against the United States, Coatesville Veterans’ Administration Medical Center
(“Coatesville VAMC”), and administrators of the Region 4 Veterans Integrated Services Network.
Her claims arise out of the allegedly negligent acts and omissions of the Coatesville VAMC
administrators in not supervising and discharging a VA employee, who was known to be
chronically violent and who repeatedly harassed Plaintiff.

Defendant moves to dismiss the

Complaint both for lack of subject-matter jurisdiction and for failure to state a claim upon which
relief may be granted. In response, Plaintiff has filed a Counter-Motion for Summary Judgment.
For the reasons that follow, I will grant Defendants’ Motion to Dismiss in part and deny it
in part, and will deny Plaintiffs Motion for Summary Judgment in its entirety.

FACTUAL ALLEGATIONS IN THE COMPLAINT
The following facts are taken from Plaintiffs Complaint:,i

i

When determining whether to grant a motion to dismiss, a federal court must construe the
complaint liberally, accept all well-pleaded factual allegations in the complaint as true, and draw
all reasonable inferences in favor of the plaintiff. Fowler v. UPMC Shadyside. 578 F.3d 203, 211

Case 2:17-cv-01551-MSG Document 13 Filed 02/07/18 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN
CIVIL ACTION
Plaintiff,

v.
NO. 17-1551

UNITED STATES. ET AL..
Defendants.
ORDER
AND NOW, this 6th day of February, 2018, upon consideration of Defendants’ Motion
to Dismiss Plaintiff s Complaint (Doc. No. 6), Plaintiffs Response in Opposition and Countermotion for Summary Judgment (Doc. No. 9), Defendants’ Reply and Response in Opposition to
the Counter-motion (Doc. No. 10), and Plaintiffs Reply (Doc. No. 11), it is hereby ORDERED
as follows:
1.

Defendants’ Motion to Dismiss (Doc. No. 6) is GRANTED IN PART and

DENIED IN PART:

2.

a.

Counts 1-3 and 5-14 of the Complaint are dismissed for lack of subjectmatter jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1);

b.

Count 15 of the Complaint is dismissed for failure to state a claim
pursuant to Federal Rule of Civil Procedure 12(b)(6);

c.

Count 4 of the Complaint is dismissed against all Defendants EXCEPT
Defendant United States of America.

Plaintiff s Counter-motion for Summary Judgment (Doc. No. 9) is DENIED.

BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG,

J.

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 2 of 23

In early 2011, Plaintiff enrolled in the Veteran’s Assistance (“VA”) Health Program as a
cardiac patient, and was assigned to the Coatesville VAMC for her primary medical care.
(Compl. p. 8.)
Plaintiffs brother, James (“JAB”), worked as a groundskeeper at Coatesville VAMC and
was allegedly involved in workplace violence, in late 2012, which resulted in federal criminal
charges. Following this incident, JAB phoned Plaintiff more than 250 times during work hours
from January to March 2014 to complain to her about his supervisors, management, co-workers,
and union representatives. Because Plaintiff was home recuperating from open heart surgery, she
became a captive sounding board for JAB. (Id.)
In early 2014, JAB assaulted VA Registered Nurse R. Solomon and threatened to kill her.
Solomon filed a Protection from Abuse action against JAB, causing him to turn his rage on
Plaintiff. When Plaintiff asked JAB to stop contacting her, JAB used Solomon’s personal email
account to send Plaintiff a credible, threatening, and profane e-mail. In mid-April 2014, following
Plaintiffs complaint to the police, JAB stated “If I go back to work tomorrow and hear that
[Plaintiff] has contacted VA, then there’s gonna be trouble.” Plaintiff contacted the VA and
reported the threats. The next day, she was taken by ambulance to the hospital for stress-induced
high blood pressure. (Id at pp. 8-9.)
After Plaintiff contacted the VA and filed her own Protection from Abuse petition against
JAB, his harassment escalated into threats and attempts on her life. On April 25, 2014, JAB made
a pre-dawn visit to Plaintiffs home after she refused to drop the Protection from Abuse order. He
cut her phone line and discharged his 22-ealiber firearm outside her window. (Id at p. 9.)

(3d Cir. 2009). Thus, my recitation of the facts assumes the truth of the factual statements in the
Complaint.
2

Case 2:17-cv-01551-MSG Document. 12 Filed 02/07/18 Page 3 of 23

In May 2014, while Plaintiff was on her way to her primary care appointment at
Coatesville VAMC, JAB drove up to her in the VAMC parking lot. He used his car to block
Plaintiff s entrance to the VA police station, glared at her, and then drove off. (Id)
Months later, in August 2014, Nurse Solomon, sent Plaintiff an email with JAB’s bogus
EEOC files attached. Out of fear that Plaintiff “could somehow derail his (bogus) EEOC claim by
forwarding his files to his employer,” JAB returned to Plaintiffs home with a loaded firearm. (Id
atpp. 9-10.)
In December 2014, JAB resumed his stalking campaign, made false reports to the state and
local police that Plaintiff was a dangerous and “mentally disturbed veteran,” and attempted to
have her involuntarily committed. (Id at p. 11.)
Plaintiff claims that Coatesville VAMC had known for decades about JAB’s physical
abuse of women employees, and it fostered a culture of hostility towards veterans, particularly
women and minorities. Plaintiff had warned the VA about JAB’s threats against the workplace
and supervisors, but supervisors did not take her seriously. According to the Complaint, VA
administrators actually reported Plaintiffs alerts back to JAB without any regard for Plaintiffs
welfare. (Id at pp. 10-11.)
Plaintiff also alleges that Coatesville VAMC’s managers, human resources, administrators,
and other decision makers had just cause to terminate JAB’s employment in 2007 and 2012.
Coatesville VAMC police knew that, in 2010, another female employee filed a formal complaint
with the VA police because JAB sent her repeated unsolicited texts and began stalking her. The
VA police, however, repeatedly failed to investigate. (Id)
Plaintiff s primary care provider and other administrators were similarly dismissive when
Plaintiff reported JAB’s intimidation and vandalism of her home. Coatesville VAMC staff was
condescending and patronizing, treating Plaintiff as though she was delusional. (Id) As a result
3

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 4 of 23

of the continuing dangers, Plaintiff transferred her medical care away from Coatesville, disrupting
her treatment. (Id at pp. 11-12.)
In December 2015, Plaintiff filed an FTCA administrative claim, along with
documentation of JAB’s threats of violence and vandalism. VA Chief Counsel George Bums
subsequently sent Plaintiff a letter indicating that the VA found no evidence of negligence of
misconduct. Plaintiff filed a request for reconsideration and, sometime after November 3, 2016,
she received a final determination letter from Director Michael Adelman, dismissing her claim.
(Id. at p. 12.)
Plaintiff initiated the current federal litigation under the FTCA on April 5, 2017. Her
complaint sets forth numerous causes of action, including: negligence/gross negligence (Count I);
negligent retention (Count II), negligence per se (Count III), privacy violation (Count IV),
negligent hiring, retention, and supervision (Count V), failure to protect and prevent abuse (Count
VI), patient abuse (Count VII), failure to report abuse (Count VIII), patient abandonment (Count
IX), harassment, intimidation, and retaliation (Count X), discrimination (Count XI), negligent
infliction of extreme mental distress (Count XII), negligent investigation (Count XIII), intentional
infliction of mental distress (Count XIV), and punitive damages (Count XV).
On August 11, 2017, Defendant filed a Motion to Dismiss. Plaintiff responded on October
12, 2017, and filed a Counter-motion for Summary Judgment.
DEFENDANTS’ MOTION TO DISMISS
Defendants move to dismiss the entire Complaint for both lack of subject matter
jurisdiction under Federal Rule of Civil Procedure 12(b)(1) and for failure to state a claim under
Federal Rule of Civil Procedure 12(b)(6). I address each portion of the motion separately.

4

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 5 of 23

I.

Subject-Matter Jurisdiction
A.

Rule 12(b)(1) Standard

A motion to dismiss under Federal Rule of Civil Procedure 12(b)(1) challenges the power
of a federal court to hear a claim or a case. Petruska v. Gannon Univ.. 462 F.3d 294, 302 (3d Cir.
2006). When presented with a Rule 12(b)(1) motion, the plaintiff “will have the burden of proof
that jurisdiction does in fact exist.” Id at 302 n.3 (quotation omitted).
There are two types of Rule 12(b)(1) motions.

A “facial” attack assumes that the

allegations of the complaint are true, but contends that the pleadings fail to present an action
within the court’s jurisdiction. Mortensen v. First Fed. Sav. & Loan Ass’n. 549 F.2d 884, 891 (3d
Cir. 1977). A “factual” attack, on the other hand, argues that, while the pleadings themselves
facially establish jurisdiction, one or more of the factual allegations is untrue, causing the case to
fall outside the court’s jurisdiction. Mortensen. 549 F.2d at 891. In such a case, “no presumptive
truthfulness attaches to plaintiffs allegations” and the court must evaluate the merits of the
disputed allegations because “the trial court’s . . . very power to hear the case” is at issue. Id
With a factual attack, the Court is free to consider evidence outside the pleadings and weigh that
evidence. Petruska. 462 F.3d at 302 n.3; see also Gould Elecs., Inc, v. U.S.. 220 F.3d 169, 176
(3d Cir. 2000). “[T]he existence of disputed material facts will not preclude the trial court from
evaluating for itself the merits of jurisdictional claims.” Petruska. 462 F.3d at 302 n.3 (quoting
Mortenson. 549 F.2d at 891).

B.

Discussion

The United States maintains sovereign immunity from suit, except to the extent that it
consents to being sued. See FDIC v. Mever. 510 U.S. 471, 475 (1994). The Federal Tort Claims
Act constitutes one such waiver of the federal government’s sovereign immunity with respect to
tort claims for money damages. See 28 U.S.C. § 1346(b)(1). Under the FTCA, the United States

5

Case 2;17-cv-01551-MSG Document 12 Filed 02/07/18 Page 6 of 23

may be liable for “personal injury or death caused by the negligent or wrongful act or omission of
any employee of the Government while acting within the scope of his office or employment.” 28
U.S.C. § 1346(b)(1). A plaintiff “bears the burden of demonstrating that his claims fall within the
scope of the FTCA’s waiver of government immunity.” Merando v. U.S.. 517 F.3d 161, 164 (3d
Cir. 2008).
Defendants assert that most, if not all, of Plaintiff s claims do not fall within the scope of
the FTCA’s waiver of immunity, thereby depriving the Court of subject-matter jurisdiction. They
premise this argument on three grounds: (1) the discretionary function exception to the Federal
Tort Claims; (2) the failure to meet the scope of employment provision of the FTCA; and
(3) failure to exhaust.
1.

•y

Discretionary Function Exception

The well-established “discretionary function exception” of the FTCA limits the FTCA’s
waiver of sovereign immunity by “eliminating jurisdiction for claims based upon the exercise of a
discretionary function on the part of an employee of the government.” Baer v. U.S.. 722 F.3d
168, 172 (3d Cir. 2013) (citing 28 U.S.C. § 2680(a)). Under this exception, the government
retains sovereign immunity with respect to “[a]ny claim . . . based upon the exercise or
performance or the failure to exercise or perform a discretionary function or duty on the part of a
federal agency or an employee of the Government, whether or not the discretion involved be
abused.” Id In this manner, the discretionary function exception draws a “boundary between
Congress’ willingness to impose tort liability upon the United States and its desire to protect
certain governmental activities from exposure to suit by private individuals.” United States v.
Varig Airlines. 467 U.S. 797, 808 (1984). Congress enacted the discretionary function exception
2

Defendants also argue that the Court lacks jurisdiction over FTCA claims that involve certain
intentional torts and claims concerning medical benefits. As I dismiss those claims on other
jurisdictional grounds, I need not reach these arguments.
6

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 7 of 23

to “prevent judicial ‘second-guessing’ of legislative and administrative decisions grounded in
social, economic, and political policy through the medium of an action in tort.” Id. at 814.
Application of the discretionary function exception is analyzed under a two-part test.
First, a court must “consider whether the action is a matter of choice for the acting employee.
This inquiry is mandated by the language of the exception; conduct cannot be discretionary unless
it involves an element of judgment or choice.” Baer. 722 F.3d at 172 (citing Berkovitz v. United
States. 486 U.S. 531, 536 (1988)).

Second, a court must determine whether the judgment

exercised “is of the kind that the discretionary function exception was designed to shield.” Id.
(citing Berkovitz. 486 U.S. at 536).

The discretionary function exception “protects only

governmental actions and decisions based on considerations of public policy.”

Id

“[I]f a

regulation allows the employee discretion, the very existence of the regulation creates a strong
presumption that a discretionary act authorized by the regulation involves consideration of the
same policies which led to the promulgation of the regulations.” United States v. Gaubert. 499
U.S. 315, 324 (1991). Notably, the government “has the burden of proving the applicability of the
discretionary function exception.” Merando. 517 F.3d at 164.
Pursuant to this legal framework, Defendants contend that multiple counts of the
Complaint are barred by the discretionary function exception. I agree and will dismiss counts one,
two, three, five, six, eight, and twelve on this basis.

a.

Negligent Hiring, Retention, Training, Discipline, and Supervision
Claims

Counts one, two, three, five, and twelve of the Complaint3 allege that VA employees
negligently hired, trained, retained, supervised, and failed to remove JAB and other employees.

3

Count one asserts that Defendants had a duty to protect VA clients from known violent
employees and that they breached this duty by failing to properly hire, train, and supervise JAB as
an employee. Count two asserts that Defendants were aware that JAB was a chronically violent
7

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 8 of 23

Applying the two-step inquiry defined above, I find that the discretionary function exception
deprives the Court of jurisdiction over these claims.
- Federal appellate courts stand in agreement that decisions relating to the hiring, training,
and supervision of employees are inherently a discretionary function.4 Although the issue has not
been explicitly addressed by the Third Circuit, numerous trial courts within the Third Circuit have
reached the same conclusion.5 Underlying these decisions is the notion that “employment and

employee, but were negligent in disciplining and retaining him as an employee. Count three sets
forth a negligence per se claim, asserting that Defendants’ decision to retain JAB violated their
duties under the VA Handbook 5021. Count five alleges negligent hiring, training, and
supervision as to employees Nurse Solomon, Coatesville VAMC managers, and final decision
makers. Count twelve asserts that Defendants committed negligent infliction of emotional distress
on Plaintiff by negligently retaining a dangerous employee whose violence should have been
foreseeable.
4 See, e.g.. Snyder v. U.S.. 590 F. App’x 505, 510 (6th Cir. 2014) (holding that agency hiring,
supervision, training, and retention generally fall within discretionary function exception); Guile
v. U.S.. 422 F.3d 221, 231 (5th Cir. 2005) (holding that hiring of a contractor and supervision of a
contractor’s work, including the degree of oversight to exercise, is inherently a discretionary
function); Vickers v. U.S.. 228 F.3d 944, 950 (9th Cir. 2000) (“This court and others have held
that decisions relating to the hiring, training, and supervision of employees usually involve policy
judgments of the type Congress intended the discretionary function exception to shield.”);
Burkhart v. Wash. Metro. Area Transit Auth.. 112 F.3d 1207, 1217 (D.C. Cir. 1997) (“[Djecisions
concerning the hiring, training, and supervision of WMATA employees are discretionary in
nature, and thus immune from judicial review.”); Tonelli v. U.S.. 60 F.3d 492, 496 (8th Cir. 1995)
(“Issues of employee supervision and retention generally involve the permissible exercise of
policy judgment and fall within the discretionary function exception.”); Richman v. Stralev. 48
F.3d 1139, 1146—47 (10th Cir. 1995) (“Decisions regarding employment and termination are
inherently discretionary .... Such sensitive decisions are precisely the types of administrative
action the discretionary function exception seeks to shield from judicial second-guessing.”)
(citation omitted); Attallah v. U.S.. 955 F.2d 776, 785 (1st Cir. 1992) (“[T]he supervisory
functions of [a government agency] constitute discretionary functions as defined by 28 U.S.C.
§ 2680(a).”).
5 See, e.g.. Amberg-Blvskal v. Transp. Sec. Admin.. No. 10-6816, 2011 WL 4470883, at *2
(E.D. Pa. Sept. 26, 2011) (holding that hiring and supervising decisions are the types of
discretionary acts susceptible to policy analysis); Woods v. United States. No. 07-593, 2007 WL
3243852, at *5 (D.N.J. Nov. 1, 2007) (holding that hiring and supervision of agency personnel is
discretionary); CAC v. U.S.. 09-6057, 2010 WL 5239237, at *3 (D.N.J. Dec. 16, 2010) (holding
that the failure to discipline employee for wrongful acts and the reassignment of that employee to
8

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 9 of 23

termination decisions are, as a class, the kind of matters requiring consideration of a wide range of
policy factors, including ‘budgetary constraints, public perception, economic conditions,
individual backgrounds, office diversity, experience and employer intuition.”’ Svdnes v. U.S.,
523 F.3d 1179, 1186 (10th Cir. 2008) /quoting Burkhart. 112F.3dat 1217).
Consistent with this principle, cases involving allegations of negligent hiring, supervision,
and retention against the VA have generally found that—absent a policy mandating specific
supervision, retention, or hiring procedures—such claims fall within in the discretionary function
exception to the FTCA’s waiver of liability absent a policy that expressly mandates specific
supervisory, retention, or hiring practices. See Anasazi v. U.S.. No. 16-2227, 2017 WL 2264441
(D. Kan. May 23, 2017) (finding that negligent hiring and retention claims were within exception
where no policy, Handbook, or Directive mandated specific hiring or employment retention
decisions); French v. U.S., 195 F. Supp. 3d 947, 954 (N.D. Ohio 2016) (holding that the VA’s
conduct in hiring, retaining, entrusting, training, and supervising a chaplain and other members of
the VA team “fall squarely within the discretionary function exception.”); Gibbons v. Fronton,
533 F. Supp. 2d 449, 456 (S.D.N.Y. 2008) (finding that decision by VA to contract with clinic for
the provision of primary and preventative care in veterans’ local communities was within
discretion granted to VA by statute and, therefore, barred negligent hiring and supervision claims
by plaintiff patient).6

a new location with knowledge of his wrongful conduct is within the discretionary function
exception).
6 Plaintiff cites two Third Circuit cases—Cestonaro v. United States. 211 F.3d 749 (3d Cir. 2009)
and Gotha v. United States. 115 F.3d 176 (3d Cir. 1997)—for the proposition that “when a
governmental actor has reason to know about a specific risk of injury or harm but does nothing to
remedy the danger, then future harm by the same known source of danger renders the
discretionary function exception inapplicable and does NOT bar a negligence claim.” (Pl.’s
Opp’n Mot. to Dismiss p. 15.)
9

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 10 of 23

The crux of the discretionary function analysis in this case thus turns on whether Plaintiff
can identify statutes and/or regulations that limited the discretion of the VA in its hiring, retention,
or supervision decisions of employees such as JAB.

None of the regulations identified by

Plaintiff meet this standard.
First, Plaintiff cites to Pennsylvania state common law, which imposes a legal duty to
avoid reckless or negligent behavior that will not expose others to risks of injury which are
reasonably foreseeable. (Pl.’s Opp’n Mot. to Dismiss, p. 13-14.) “To overcome the discretionary
function exception . . . plaintiffs must show that the federal employee’s discretion was limited by
a federal statute, regulation, or policy.” Svdnes v. United States. 523 F.3d 1179, 1184 (10th Cir.
2008) (emphasis in original) (quotation omitted). States cannot waive the federal government’s
immunity and, therefore, a plaintiff must point to a federal policy incorporating state tort law as a
limit on the discretion of federal employees. Id.
Alternatively, Plaintiff points to VHA Directive 5025, “38 C.F.R. 0.735,7 5 U.S.C. § 7511
[and] 5 C.F.R. § 752.401(c),” which purportedly set out mandatory standards of employee
conduct, as well as the standard course of action and procedures for adverse actions against
violent employees. A review of these citations, however, reveals that Defendants retain discretion
in their employment decisions. For example, 5 U.S.C. § 7513 and 5 C.F.R. § 752.401 are general
provisions that prescribe certain procedures a federal agency must follow before taking a serious
adverse action against administrative personnel; they do not dictate when an employee must be
Both of those cases are inapposite as they involved “garden variety” decisions where the
government agencies failed to physically maintain their properties, resulting in physical injuries to
the plaintiffs. In both situations, the court found that the failure to act was a result of
administrative missteps as opposed to a policy-based decision. Cestanaro. 211 F.3d at 755;
Gotha. 115 F.3d at 181. By contrast, this case involves hiring and retention decisions that have
been found to fall squarely within the discretionary function exception.
7 This provision does not exist in the Code of Federal Regulations.
10

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 11 of 23

disciplined. Similarly, 38 U.S.C. § 7461, et seq.. which applies specifically to VA employees,
defines the procedures that the YA has to follow when taking adverse actions against employees
without dictating the circumstances under which any adverse actions must be taken.
Finally, Plaintiff relies heavily on VHA Policy Handbook 5021, which enumerates
appropriate punishments for various offenses by VA employees. The Handbook, however, does
not constrain the judgment of VA supervisors to make employment decisions or impose
discipline. Rather, it rests on “[t]he policy of the VA to maintain standards of conduct and
efficiency that will promote the best interests of the service.” Handbook 5021, Ch. 1. Indeed,
contrary to Plaintiffs argument that the “Schedule of Offenses and Penalties” in the Handbook is
mandatory and prescribes minimum penalties for certain offenses, Appendix A to the Schedule of
Offenses states that “[t]his appendix will be used as a guide in the administration of disciplinary
and major adverse actions to help ensure that like actions are taken for like offenses.” (Handbook,
Part I, App’x A (emphasis in original).) Moreover, the Handbook provides that the responsible
official that has initiated an action should consider “[a]ny extenuating or mitigating circumstances
or other contributing factors which may have some bearing on the situation.” VA Handbook
5021, Part I, Ch. 1, at 1-8. In short, Plaintiff identifies no policy or regulation that cabins the
discretion of VA employees in making hiring, supervision, training, or retention decisions and
leaves them “no rightful option but to adhere to the directive.”8 Berkovitz v. United States. 486
U.S. 531,536(1988).

8

Citing to Woods v. U.S.. 2007 WL 3243852, Plaintiff argues that the discretionary function
exception applies to only agency-level administrative and legislative acts that are related to and
impact public policy. Woods actually contradicts that argument as it found that decisions by
individual FBI agents regarding how to select and supervise an informant, whether to investigate
an act, and whether to use an undercover operation are all decisions that fall within the
discretionary function exception. Id at *5; see also Newsham v. Transp. Sec. Admin.. No. 08105, 2010 WL 715838, at *9 (D.N.J. Feb. 26, 2010) (“The discretionary function exception is not
limited to those agencies and heads of agencies who make choices based in policy concerns. The
11

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 12 of 23

With respect to the second prong of the discretionary function analysis—whether the
judgment is of the kind the discretionary function was designed to shield—I find that the acts at
■ issue in these counts are policy-based in nature. As set forth above, Handbook 5021 specifically
allows for the use of discretion in imposing discipline on an employee and sets forth various
factors that the supervisor should consider when determining what penalty to impose. “[I]f a
regulation allows the employee discretion, the very existence of the regulation creates a strong
presumption that a discretionary act authorized by the regulation involves consideration of the
same policies which led to the promulgation of the regulations.” Gaubert. 499 U.S. at 324.
Accordingly, I will dismiss counts one, two, three, and five for lack of subject-matter
jurisdiction.
b.

Claims that the VA Negligently Investigated Plaintiff’s Complaints

and that Employees Failed to Report Abuse and Protect Plaintiff
from Abuse
Counts six and eight9 of the Complaint allege that VA employees disregarded and failed to
report abuse by JAB against Plaintiff, and count thirteen10 contends that the VA supervisors failed
to investigate complaints of JAB’s abuse.

exception also extends to shield the actions of employees who act within the scope of that
policy.”).
9 Count six alleges that “by repeatedly disregarding management’s Proposals for Removing
violent CVAMC Employee JAB from federal employment (or at least transfer him to a different
VA facility), Defendants gave JAB the clear message that he is untouchable and cannot be fired.”
Count eight asserts that JAB’s brother, AWB, who was also a VA employee, knew of threats
made by JAB towards Plaintiff, but failed to report JAB’s patient abuse to VA authorities. In
addition, Count 8 contends that Nurse Solomon also failed to report both JAB’s threatening email
to Plaintiff that was sent from her account and JAB’s threat against Plaintiff, made in her
presence, to his brother AWB.
10 Count thirteen contends that “Defendants at VISM 4 Regional Headquarters (Carla Sivek and
Michael Adelman) had a duty to fully and fairly investigate Complaints before and following her
Administrative Claim,” but breached that duty.
12

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 13 of 23

Under the first element of the discretionary function test, the Third Circuit has held that
“[decision making as to investigation and enforcement, particularly where there are different
types of enforcement action[s] available, are discretionary judgments.” Bemitskv v. U.S.. 620
F.2d 948, 955 (3d Cir. 1980); see also Donaldson v. U.S.. 281 F. App’x 75, 77 (3d Cir. 2008).
This rule applies equally to administrative agency decisions regarding whether to bring
enforcement actions.

Green v. U.S.. No. 94-5706, 1995 WL 574495, at *6 (E.D. Pa. Sept. 22,

1995) (holding that prison officials’ decision as to whether to issue an incident report against an
inmate based on another inmate’s complaint “clearly falls within the discretionary function
exception”). “With respect to conduct on VA property ... the VA is entitled to the range of
discretion properly accorded other law enforcement agencies.” Pooler v. U.S.: 609 F. Supp. 198,
203 (E.D. Pa. 1985), affd, 787 F.2d 868 (3d Cir. 1986); see also French v. U.S.. 195 F. Supp. 3d
947, 955 (N.D. Ohio 2016) (VA’s delay in investigating alleged abuse by VA chaplain is a
question that involves an element of judgment and, thus, falls within the discretionary function
exception).
Under the second element, the decision of the VA employees as to whether to report
threats by another employee outside the workplace or whether to investigate any such reports is
one susceptible to policy analysis. See Ochran v. U.S.. 117 F.3d 495, 501 (11th Cir. 1997) (“[I]t
is not relevant whether the government employee in fact made a policy judgment in this case
The inquiry is whether the nature of the conduct at issue is ‘susceptible to policy analysis.’”).
Among the factors that an employee or supervisor would have to consider are the nature of the
threat, whether it is credible, and whether it implicates workplace safety.
Plaintiff has not identified any statute, regulation, or policy that mandated specific action
either by VA employees in reporting the alleged abuse by JAB that occurred off VA premises, or
by VA supervisors in failing to investigate Plaintiffs administrative complaints about JAB.
13

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 14 of 23

Although Plaintiff cursorily references the VA’s “Medical Center Policy on Workplace Violence
Prevention and Intervention,” she offers no explanation about how this policy circumscribed the
VA’s investigative discretion. Indeed, a review of this policy reveals no explicit requirement
regarding how or when VA staff conduct any investigation. Therefore, I will dismiss counts six,
eight, and thirteen of the Complaint for lack of subject matter jurisdiction.

2.

Claims Involving Acts by Employees Committed Outside the Scope of
Their Employment

Defendants’ second jurisdictional argument asserts that all but two of Plaintiff s remaining
claims11 do not satisfy the “scope of employment” element of the FTCA’s waiver provision.
Specifically, Defendants contend that these claims all involve JAB’s alleged threatening actions,
which were done outside the scope of his employment.
The FTCA waives the government’s immunity for “personal injury or death caused by the
negligent or wrongful act or omission of any employee of the Government while acting within the
scope Of his office or employment28 U.S.C. § 1346(b)(1) (emphasis added).

The explicit

language of this provision mandates that, for the waiver of immunity to apply, the act complained
of must have been done within the scope of the offending individual’s employment. Id In the
Third Circuit, the scope-of-employment requirement in the FTCA is jurisdictional. CNA v. U.S..
535 F.3d 132, 144 (3d Cir. 2008). The court must, however, take care not to resolve the merits of
the action and therefore should require less of a factual showing from plaintiff than would be
required at trial. Id
To determine whether the “scope of employment” provision has been satisfied, a court
must look to the law of the place where the act or omission occurred, which, in this case, is
Pennsylvania. Id. at 146. Pennsylvania has adopted the Restatement (Second) of Agency’s

11 Plaintiffs do not challenge counts four and eleven on this ground.
14

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 15 of 23

definition of conduct within the scope of employment. Id Under this definition, ‘“conduct is
within the scope of employment if, but only if: (a) it is the kind [the employee] is employed to
perform; (b) it occurs substantially within the authorized time and space limits[; and] (c) it is
actuated, at least in part, by a purpose to serve the master.’” Id. (quoting Brumfield v. Sanders.
232 F.3d 376, 380 (3d Cir. 2000) (quoting Restatement (Second) of Agency § 228)). For an
individual’s actions to be within the scope of employment, all three factors must be satisfied.
CNA. 535 F.3d at 147.
Here, even taking the allegations of the Complaint as true, it is undisputed that all of the
acts that make up the basis for Counts seven, nine, ten, and fifteen occurred either outside the time
and space limitations of the offending individuals’ employment with the VA, or were not
committed on behalf of or with the authorization of the VA.
For example, count seven for “patient abuse” alleges that Nurse Solomon (1) allowed JAB
to send a violent, threatening email to Plaintiff from her personal email account; (2) helped JAB
retaliate against Plaintiff for reporting his abuse to the Patient Advocate; and (3) recklessly
emailed Plaintiff a copy of JAB’s bogus EEOC file without warning her that JAB would attempt
to stop Plaintiff from forwarding the email to either the VA Police or CVAMC administrators.
The Complaint contains no allegations that any of these events took place during work hours at
the VA, on the VA premises, or using a VA work email.

Moreover, the allegations of the

Complaint, taken as true, do not permit an inference either that these actions by Nurse Solomon
were the kind that she was employed to perform or that they were actuated in any part with intent
to serve the VA. Quite to the contrary, the Complaint expressly alleges that Solomon acted for
purposes of either personally retaliating against JAB or helping JAB retaliate against Plaintiff.

15

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 16 of 23

Count nine alleges “patient abandonment,” 12 claiming that “[a]s a result of the harassment,
intimidation, threats and stalking, Plaintiff was forced to stop receiving her primary care treatment
and other medical treatment at Coatesville VA Medical Center.”

(Compl. p. 17.)

Plaintiff

explicitly alleges that almost all of the alleged harassment, intimidation, threats, and stalking
occurred off the VA premises. Plaintiff specifically states that JAB called her at home more than
250 times to complain about VA officials. In addition, JAB allegedly twice-threatened Plaintiff
with a firearm at her home and sent her a threatening e-mail from Solomon’s personal e-mail
address. See Doughty v. U.S. Postal Serv.. 359 F. Supp. 2d 361, 366 (D.N.J. 2005) (holding that
postal worker was acting outside scope of employment when he visited fellow postal employee
during non-working hours, at her home, using a pretext that had nothing to do with his
employment, and allegedly assaulted her). The only act that occurred on VA premises involved
JAB driving his vehicle up to Plaintiff while she was on Coatesville VA property to see her
primary care physician. The evidence reveals, however, that JAB was off duty from work on the
relevant day and he immediately drove away after the incident. (Defs.’ Mot. to Dismiss, Exs. 1 &
2.) The Complaint permits no plausible inference that any of these acts were taken in the scope of
JAB’s employment as groundskeeper or were designed to fulfill his employment duties.
12

To the extent Plaintiff alleges in this Count that she was deprived of medical care to which she
was entitled, this Court has no jurisdiction over this claim. 38 U.S.C. § 511(a) states that the
Secretary of Veterans Affairs:
shall decide all questions of law and fact necessary to a decision by
the Secretary under a law that affects the provision of benefits by
the Secretary to veterans.... Subject to subsection (b), the decision Of

the Secretary as to any such question shall be final and conclusive
and may not be reviewed by any other official or by any court,
whether by an action in the nature of mandamus or otherwise.
38 U.S.C. § 511(a) (emphasis added). Section 511(a) specifically “precludes judicial review in
Article III courts of VA decisions affecting the provision of veterans’ benefits.” Price v. United
States. 228 F.3d 420, 421 (D.C. Cir. 2000).
16

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 17 of 23

Count ten alleges harassment, intimidation, and retaliation by JAB, Solomon, and JAB’s
brother AWB, all of whom were VA employees. For the reasons set forth above, the actions by
JAB and Solomon cannot be deemed to be within the scope of employment. As to AWB, Plaintiff
alleges only that he worked in the YA Patient Records Office and that he relayed several
threatening messages from JAB to Plaintiff. No facts allow any inference that AWB relayed these
messages in the course of his employment with the VA.
Finally, count fourteen repeats the allegations of count ten under the guise of an intentional
infliction of mental distress claim. For the same reasons set forth above, these actions were not
within the scope of the individuals’ employment.
In short, Plaintiff incorrectly assumes that because JAB, Solomon, and AWB were
employed by Coatesville VA during the relevant time period, all of their actions with respect to
Plaintiff were done within the scope of their employment. Without some showing that these
actions were the kind these individuals were employed to perform, occurred substantially within
the authorized time and space limits, and were actuated at least in part by a purpose to serve the
master, Plaintiff cannot plausibly allege that they fell within the waiver of immunity provision of
§ 1346(b)(1). Accordingly, I will dismiss counts seven, nine, ten, and fourteen for lack of subjectmatter jurisdiction.

3.

Failure to Exhaust

Defendants’ last jurisdictional argument contends that Plaintiff failed to exhaust her
administrative remedies as to count eleven.
The FTCA expressly provides that “[a]n action shall not be instituted upon a claim against
the United States” for damages “unless the claimant shall have first presented the claim to the
appropriate Federal agency and his claim shall have been finally denied by the agency in writing. .
. .” 28 U.S.C. § 2675(a). “Although an administrative claim need not propound every possible
17

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 18 of 23

theory of liability in order to satisfy section 2675(a),... a plaintiff cannot present one claim to the
agency and then maintain suit on the basis of a different set of facts.” Roma v. U.S.. 344 F.3d
352, 362 (3d Cir. 2003) (quotation omitted). Given the strict construction of the limited waiver of
sovereign immunity by the United States, the Third Circuit has held that “the requirement that the
appropriate federal agency act on a claim before suit can be brought is jurisdictional and cannot be
waived.” Id.
In count eleven, Plaintiff contends that VA employees JAB, Solomon, and AWB targeted
her as a disabled, woman veteran, and portrayed her as a psychiatric patient, even though she was
a cardiac patient, with the intent of perpetuating negative stereotypes and having her involuntarily
committed. (Compl. p. 18.) As a result, Plaintiffs primary care provider, Dr. Cooper, treated her
as though she was delusional and dismissed her reports about vandalism, harassing, and stalking.
(Id)

In addition, when she asked the Coatsville VAMC to help her get admitted to the

Wilmington VAMC, the Coatesville staff insisted that they were only willing to admit her to the
psychiatric ward. (Id.)
Neither this claim nor its underlying facts appear anywhere in Plaintiffs administrative
complaint.

Plaintiff limited her administrative claims to negligent infliction of emotional

anguish/mental stress; negligent application of VHA Directive 2010-053, 38 C.F.R. 17.07;
negligent omission of threat assessment; negligent retention of dangerous employee; patient
abuse; negligent actions which encouraged known violent employee to dehumanize and stalk
women veterans; and Health Insurance Portability & Accountability Act and Privacy Act
violations. (Compl., Ex. 1, exh. A.) At no point did Plaintiff discuss discriminatory treatment by
Dr. Cooper or mention the refusal to assist her admission to the Wilmington VAMC.
As Plaintiff has failed to exhaust this claim, and as the exhaustion requirement is
jurisdictional, I must dismiss this claim for lack of subject matter jurisdiction.
18

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 19 of 23

II,

Failure to State a Claim
A.

Rule 12(b)(6) Standard

Under Federal Rule of Civil Procedure 12(b)(6), a defendant bears the burden of
demonstrating that the plaintiff has not stated a claim upon which relief can be granted. Fed. R.
Civ. P. 12(b)(6); see also Hedges v. United States. 404 F.3d 744, 750 (3d Cir. 2005). The United
States Supreme Court has recognized that “a plaintiffs obligation to provide the ‘grounds’ of his
‘entitle[ment] to relief requires more than labels and conclusions.” Bell Atl. Corp. v. Twombly.
550 U.S. 544, 555 (2007) (quotations omitted). “[Tjhreadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, do not suffice” and “only a complaint that
states a plausible claim for relief survives a motion to dismiss.” Ashcroft v. Iqbal. 556 U.S. 662,
678 (2009). “A claim has facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Id. A complaint does not show an entitlement to relief when the well-pleaded facts do not permit
the court to infer more than the mere possibility of misconduct, hi
The United States Court of Appeals for the Third Circuit has detailed a three-step process
to determine whether a complaint meets the pleadings standard. Bistrian v. Levi. 696 F.3d 352
(3d Cir. 2014). First, the court outlines the elements a plaintiff must plead to state a claim for
relief. Id. at 365. Next, the court must “peel away those allegations that are no more than
conclusions and thus not entitled to the assumption of truth.” Id. Finally, the court “look[s] for
well-pled factual allegations, assume[s] their veracity, and then ‘determine[s] whether they
plausibly give rise to an entitlement to relief.’” Id. (quoting Iqbal. 556 U.S. at 679). The last step
is “a context-specific task that requires the reviewing court to draw on its judicial experience and
common sense.” Id (quoting Iqbal. 556 U.S. at 679).

19

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 20 of 23

B.

Discussion

Having found no subject-matter jurisdiction over thirteen of Plaintiffs fifteen causes of
action, only counts four and fifteen remain. I now turn to the merits of these counts to address
whether Plaintiff has properly stated a claim under Federal Rule of Civil Procedure 12(b)(6).
1.

Privacy Violation

Count four of the Complaint alleges that
At all times relevant in 2014 VA Employee AWB (JAB[‘]s brother)
was an employee in Coatesville VAMC’s PATIENT RECORDS
OFFICE. Defendant employer is liable for [AWBj’s HIPAA
violations and the breaches of Plaintiffs privacy—which includes
the un-authorized access and disclosure of Plaintiff s private health
information to JAB—who disclosed and disseminated the
information to 3rd parties for malicious reasons. Among those
reasons, was a malicious prosecution in a frivolous “Protection
From Abuse” civil action.
(Compl. atp. 15.)
Pennsylvania law recognizes four torts under the umbrella of invasion of privacy: “[1]
unreasonable intrusion upon the seclusion of another; [2] appropriation of another’s name or
likeness; [3] unreasonable publicity given to another’s private life; and [4] publicity that
unreasonably places the other in a false light before the public.” Boring v. Google Inc.. 362 F.
App’x 273, 278 (3d Cir. 2010) (quoting Burger v. Blair Med. Assocs.. Inc.. 964 A.2d 374, 376-77
(Pa. 2009) (citing Restatement (Second) of Torts §§ 652B-E (1977))). As neither the second nor
the fourth tort apply to the facts here, I will treat Plaintiffs claim as arising under either the first
tort (intrusion upon seclusion) or the third tort (unreasonable publicity).
A claim for unreasonably publicity requires allegations of “(1) publicity, given to (2)
private facts, (3) which would be highly offensive to a reasonable person, and (4) is not of
legitimate concern to the public.” hi at 280 (quoting Harris by Harris v. Easton Publ’g. Co.. 483
A.2d 1377, 1384 (Pa. Super. 1984) (citing Restatement (Second) of Torts § 652D))).
20

“The

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 21 of 23

element of ‘publicity’ requires that the matter is made public, by communicating it to the public at
large, or to so many persons that the matter must be regarded as substantially certain to become
one of public knowledge. Disclosure of information to only one person is insufficient.” Burger v.
Blair Med. Assocs.. Inc.. 964 A.2d 374, 378 (Pa. 2009) (quoting Harris. 483 A.2d at 1384).
In her Complaint, Plaintiff alleges that the sole recipient of Plaintiffs personal health
information was JAB. As the element of publicity is not satisfied, this theory cannot survive.
A claim for intrusion upon seclusion, on the other hand, does not have an element of
publication. See Borse v. Piece Goods Shop. Inc.. 963 F.2d 611, 621 (3d Cir. 1992). Rather, a
plaintiff must allege conduct demonstrating “an intentional intrusion upon the seclusion of [a
plaintiff s] private concerns which was substantial and highly offensive to a reasonable person,
and aver sufficient facts to establish that the information disclosed would have caused mental
suffering, shame or humiliation to a person of ordinary sensibilities.” Boring. 362 F. App’x at
278-79 (quoting Pro Golf Mfg., Inc, v. Tribune Review Newspaper Co.. 809 A.2d 243, 247 (Pa.
2002) (citations omitted). “[A]n actor commits an intentional intrusion only if he believes, or is
substantially certain, that he lacks the necessary legal or personal permission to commit the
intrusive act.” O’Donnell v. U.S.. 891 F.2d 1079, 1083 (3d Cir. 1989).
Although Defendants argue that the Complaint fails to adequately plead that intrusion by
AWB was intentional, their argument is misplaced at this stage of the litigation.

Plaintiff

plausibly alleges that the Coatesville VA had records containing personal health information, that
its employee AWB had access to that health information, that the VA Privacy Policy directed that
such information was to be kept confidential,13 and that AWB, presumably acting within the scope

13 Pursuant to VHA Notice of Privacy Practices IB-10-163:
The Department of Veterans Affairs’ (VA) Veterans Health
Administration (VHA) is required by law to maintain the privacy of
21

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 22 of 23

of his employment, intentionally disclosed it to his brother, who then used it for malicious
purposes.

Although the Complaint does not specifically address AWB’s intention, it is a

reasonable inference from the Complaint’s allegations that AWB was substantially certain that he
did not have the necessary legal or personal permission to disclose such information to JAB. Such
allegations survive a motion to dismiss.14
2.

Punitive Damages

In count fifteen of the Complaint, Plaintiff seeks punitive damages. The FTCA, however,
specifically precludes such damages, stating:
The United States shall be liable, respecting the provisions of this
title relating to tort claims, in the same manner and to the same
extent as a private individual under like circumstances, but shall not
be liable for interest prior to judgment or for punitive damages.
28 U.S.C. § 2674; see also Provolos v. FBI. 632 F. App’x 58, 59 n.l (3d Cir. 2015) (holding that
punitive damages are not authorized by the FTCA). Accordingly, I will dismiss this Count of the
Complaint.

C.

Conclusion as to Defendants’ Motion to Dismiss

In light of the foregoing, Plaintiffs claim for invasion of privacy (count four) survives as
against the United States. I find, however, that the Court lacks subject matter jurisdiction over

your protected health information and to provide you with notice of
its legal duties and privacy practices. VHA is also required to abide
by the terms of this Notice and its privacy policies.
Id.
14 Plaintiff brings this claim against the United States, as well as Coatesville VA Medical Center,
and administrators of the Region 4 Veterans Integrated Services Network, including human
resources staff, program managers, and policy makers. (Compl. p. 1.) It is well established that
“[t]he only proper defendant in an FTCA suit is the United States itself.” Feaster v. Fed. Bureau
of Prisons. 366 F. App’x 322, 323 (3d Cir. 2010). Neither the agency nor individual employees
are proper defendants with respect to claims under the FTCA. See Travis v. Sniezek, No. 102653. 2012 WL 2389849, at *2 (M.D. Pa. May 8, 2012). Thus, to the extent count four has been
brought against any Defendant other than the United States, that claim will be dismissed.
22

Case 2:17-cv-01551-MSG Document 12 Filed 02/07/18 Page 23 of 23

counts one to three and five to fourteen of the Complaint, and that Plaintiff may not pursue his
count fifteen claim for punitive damages against the United States. Because amendment these
claims would be futile, I will not grant leave to file an amended complaint.
PLAINTIFF’S MOTION FOR SUMMARY JUDGMENT
Plaintiff has filed a counter-motion for summary judgment which presumably seeks a
judgment in her favor on the entirety of her Complaint. As set forth in detail above, however, all
of Plaintiffs claims—but for count four—must be dismissed. Although count four survives,
Plaintiff has not demonstrated the absence of a genuine issue of material fact on this claim, which
would entitle her to judgment as a matter of law. Fed. R. Civ. P. 56(c)(2). Indeed, Plaintiff only
surmises that AWB disclosed her personal health information to JAB, but offers no evidence to
prove that AWB, while acting in the scope of his employment in the Patient Record Office,
released the records.
CONCLUSION
In light of the foregoing, I will deny Plaintiffs Motion for Summary Judgment and I will
grant Defendants’ Motion to Dismiss in part and deny it in part. An appropriate Order follows.

23

n

APPENDIX C

Docket: Pagl Shows Incorrect Designation of Federal Employer Liability
Complaint as “Civil Rights” Other (pursuant to 42 USC 1983)

i

i
Utfited States District Court Eastern District of Pennsylvania

https://ecf.paed.uscourts.gov/cgi-bin/DktRpt.pl7533562294147498-...

CLOSED STANDARD

United States District Court
Eastern District of Pennsylvania (Philadelphia)
CIVIL DOCKET FOR CASE #: 2:17-cv-01551-MSG
BROWN v. UNITED STATES et al
Assigned to: HONORABLE MITCHELL S. GOLDBERG
Cause: 42:1983 Civil Rights Act

Date Filed: 04/05/2017
Date Terminated: 02/21/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
BLANCHE A. BROWN

represented by BLANCHE A. BROWN
P.O. BOX 266
ATGLEN, PA 19310
610-593-3425
Email: brownablanc@aol.com
PROSE

V.
Defendant
UNITED STATES

represented by GREGORY B. DAVID
U.S. ATTORNEY'S OFFICE
615 CHESTNUT ST STE 1250
PHILADELPHIA, PA 19106
215-861-8521
Email: gregory.david@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
JACQUELINE CHRISTINE
ROMERO
US ATTORNEY'S OFFICE
615 CHESTNUT STREET
PHILADELPHIA, PA 19106
215-861-8470
Email: jacqueline.romero@usdoj.gov
ATTORNEY TO BE NOTICED
SCOTT WEBSTER REID
U.S. ATTORNEY'S OFFICE - EDPA
615 CHESTNUT ST SUITE 1250

1 of 12

3/25/19 4:37 PM

